<html>
<title> - WOMEN AND THE ARAB SPRING</title>
<body><pre>[Senate Hearing 112-205]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-205
 
                       WOMEN AND THE ARAB SPRING

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON INTERNATIONAL 
                     OPERATIONS AND ORGANIZATIONS,
                        HUMAN RIGHTS, DEMOCRACY,
                       AND GLOBAL WOMEN'S ISSUES

                                AND THE

                    SUBCOMMITTEE ON NEAR EASTERN AND
                    SOUTH AND CENTRAL ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             0FIRST SESSION

                               __________

                            NOVEMBER 2, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE
72-399                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5b3c2b341b382e282f333e372b7538343675">[email&#160;protected]</a>  


                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
               William C. Danvers, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

          SUBCOMMITTEE ON INTERNATIONAL OPERATIONS AND        
            ORGANIZATIONS, HUMAN RIGHTS, DEMOCRACY,        
                   AND GLOBAL WOMEN'S ISSUES        

              BARBARA BOXER, California, Chairman        

ROBERT MENENDEZ, New Jersey          JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming

                         ------------          

                SUBCOMMITTEE ON NEAR EASTERN AND        
                SOUTH AND CENTRAL ASIAN AFFAIRS        

          ROBERT P. CASEY, Jr., Pennsylvania, Chairman        

BARBARA BOXER, California            JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         MIKE LEE, Utah
CHRISTOPHER A. COONS, Delaware       MARCO RUBIO, Florida
TOM UDALL, New Mexico                JOHNNY ISAKSON, Georgia

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Afkhami, Mahnaz, president, Women's Learning Partnership, 
  Bethesda, MD...................................................    33
    Prepared statement...........................................    35
Boxer, Hon. Barbara, U.S. Senator from California, opening 
  statement......................................................     1
Bunn-Livingstone, Esq., president and CEO, Freedom Cubed, 
  Washington, DC.................................................    37
    Prepared statement...........................................    39
    Attachments to prepared statement:
        Factsheet on Women's Rights and the Arab Spring..........    59
        Appendices A, B, C, and D................................    63
Casey, Hon. Robert P., Jr., U.S. Senator from Pennsylvania, 
  opening statement..............................................    26
DeMint, Hon. Jim, U.S. Senator from South Carolina, opening 
  statement......................................................     2
Omar, Manal, director of Iraq, Iran, and North Africa Programs, 
  U.S. Institute of Peace, Washington, DC........................    28
    Prepared statement...........................................    30
Verveer, Hon. Melanne, Ambassador at Large for Global Women's 
  Issues, U.S. Department of State, Washington, DC...............     4
    Prepared statement...........................................     5
Wittes, Dr. Tamara, Deputy Assistant Secretary for Near Eastern 
  Affairs and Deputy Special Coordinator for Middle East 
  Transitions, U.S. Department of State, Washington, DC..........    10
    Prepared statement...........................................    12

              Additional Material Submitted for the Record

Human Rights First, prepared statement...........................    51
The Leadership Conference on Civil and Human Rights on behalf of 
  37 organizations, prepared statement...........................    51
Amnesty International USA, prepared statement....................    54

                                 (iii)

  


                       WOMEN AND THE ARAB SPRING

                              ----------                              


                      WEDNESDAY, NOVEMBER 2, 2011

        U.S. Senate, Committee on Foreign Relations, 
            Subcommittee on International Operations and 
            Organizations, Human Rights, Democracy and 
            Global Women's Issues and the Subcommittee on 
            Near Eastern and South and Central Asian 
            Affairs,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 2:33 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Barbara Boxer 
and Hon. Robert P. Casey, Jr., presiding.
    Present: Senators Boxer, Casey, Shaheen, Udall, and DeMint.

            OPENING STATEMENT OF HON. BARBARA BOXER,
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer [presiding]. The hearing will come to order.
    I want to say good afternoon to everyone, and I want to 
welcome all the participants in today's hearing on women and 
the Arab Spring.
    This is a joint hearing of the Subcommittee on 
International Operations and Organizations, Democracy, Human 
Rights, and Global Women's Issues and the Subcommittee on Near 
Eastern and South and Central Asian Affairs.
    In particular, I wanted to thank Senator Casey, who I 
understand will be joining us shortly, for agreeing to hold 
this hearing with me and our ranking members, Senators DeMint 
and Risch. All of these members have been very helpful in 
getting this organized.
    I want to express a warm welcome to all of our 
distinguished witnesses and I will introduce our first panel: 
Ambassador Melanne Verveer and Dr. Tamara Wittes. I will give 
them their due of a good introduction in a moment.
    But I want to talk a little bit about why we thought this 
was a very timely and important hearing, and from the 
attendance here, I think we were right.
    In December 2010, the world turned its attention to Tunisia 
after a young street vendor set himself on fire to protest the 
government's unjust treatment of the Tunisian people. His 
actions and his subsequent death sparked widespread protests, 
and within weeks that government fell.
    Since then, we have seen dictators toppled in Egypt and 
Libya and antigovernment protests erupt from Syria to Yemen. 
And in each of these countries, we have seen women fighting for 
change, whether it was the young female students marching in 
Tahrir Square or the women in Yemen who took to the streets to 
burn their veils in a sign of defiance.
    These women have much at risk. And their courage has 
inspired women around the world. In a powerful statement of 
international support, a young Yemeni woman and mother of three 
was recently awarded the Nobel Peace Prize for her efforts to 
advance democracy and human rights, including rights for women, 
in her country.
    In announcing the award, the Nobel Committee said, ``we 
cannot achieve democracy and standing peace in the world unless 
women obtain the same opportunities as men to influence 
developments at all levels of society.'' I could not agree 
more. And historians on the liberal and the conservative side 
here in America agree with that as well.
    As we watch the Arab Spring unfold, it is clear we are 
witnessing profound change. But what is not yet clear is what 
this change will mean for the women of the Middle East and 
North Africa. Will women be afforded the opportunity to play 
significant, meaningful roles in the futures of their 
respective countries? Or will they be marginalized or silenced?
    How can the United States provide meaningful support to 
help ensure that women have a seat at the table? How can 
international tools be used to encourage governments to afford 
women full and equal rights?
    Exploring these questions is the purpose of our hearing 
today.
    Our first witness is the United States Ambassador at Large 
for Global Women's Issues, Melanne Verveer. As many of you know 
Ambassador Verveer is a tireless champion for women around the 
globe. For more than 17 years in both governmental and 
nongovernmental roles, she has traveled to dozens of countries, 
first as an assistant to President Bill Clinton and chief of 
staff to First Lady Hillary Clinton, where she worked to make 
women's issues an integral part of American foreign policy and 
helped to create the President's Interagency Council on Women.
    I know Ambassador Verveer cares very deeply about women in 
the Middle East and North Africa, having traveled to the region 
several times this year alone.
    Our second witness is Dr. Tamara Wittes, the Deputy 
Assistant Secretary of State for Near Eastern Affairs and the 
Deputy Special Coordinator for Middle East Transitions. In her 
current role, she is responsible for coordinating Middle East 
human rights and democracy programming at the State Department, 
as well as running the Middle East Partnership Initiative, 
better known as MEPI.
    So I want to thank you both for being here today.
    And I am delighted to turn to my ranking member for any 
comments he may have.

             OPENING STATEMENT OF HON. JIM DeMINT,
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Thank you, Madam Chairman, and I thank our 
witnesses for being here today.
    The Arab Spring has been rightly celebrated throughout the 
world as a beginning of a new day throughout much of the Middle 
East. Although these events hold great promise for more 
equality, opportunity, and freedom for all, the United States 
must carefully monitor ongoing developments and work with women 
and minorities to ensure continued progress is made and not 
lost.
    Among the protesters who have taken to the streets were 
thousands of women, minorities, and religious groups who have 
faced centuries of oppression. They have been deprived of basic 
freedoms such as equal protection under law, freedom of speech, 
the right to participate in elections, to receive proper 
educational and career opportunities, and freely and openly 
practice their faith.
    Despite the progress being made in some areas, I continue 
to be concerned about religious minorities in this region. 
Coptic Christians, who make up 10 percent of the Egyptian 
population, are experiencing some of the worst religious 
violence in decades following the departure of President 
Mubarak. Their businesses and churches have been bombed and 
burned. Coptic Christians have been slain at the hands of the 
Egyptian Army and its supporters.
    As Secretary of State Hillary Clinton once said, women's 
rights are human rights. Certainly if women cannot freely 
worship and are being threatened with murder, their human 
rights are not being duly respected.
    While the Arab Spring is certainly presenting positive 
changes, there is much more to be done when it comes to 
supporting women's rights throughout the world. Within the 
region, women continue to face public and private 
discrimination on a daily basis. To use Saudi Arabia as an 
example, women are unable to obtain driver's licenses. 
Restaurants are segregated by gender, and there is unequal 
opportunity for education and employment. I applaud King 
Abdullah's announcement this year that women will be granted 
the right to participate in the 2015 local elections. However, 
this reform is only one in a line of necessary changes that 
Saudis can make to embrace equal rights for women.
    I would also like to touch on events in Libya. On October 
23, 2011, days after announcing the death of former dictator 
Qaddafi, the leader of the National Transition Council in Libya 
stated that as a Muslim country, we have adopted Islamic sharia 
as the main source of law. Accordingly, any law that 
contradicts Islamic principles with the Islamic sharia is 
ineffective legally is what he said. Effects of this change 
have been felt immediately as polygamy is now legal in Libya. 
The adoption of such principles that discriminate against and 
oppress women and non-Muslims should be of great concern to 
NATO nations that provided military assistance to and 
recognized this new government.
    The Arab Spring presents many possibilities of peace-
loving, inclusive democracies, but the United States must 
remain wary of elements that will seek to use this transition 
to create even more radical governments that abuse and restrict 
basic human rights, destroy longstanding international 
partnerships, and stymie the growth of key democratic ideals.
    As new governments are formed and reforms across the region 
are enacted in the coming months, the United States must work 
with the transitioning governments to ensure the protection of 
all minorities. The early development of democratic 
cornerstones, such as freedom of speech and religion, a free 
and fair electoral process, and equal opportunity, are vital to 
cementing the true spirit of the Arab Spring in these new 
governments.
    Today our subcommittee will be examining the role of one of 
the minorities most affected, the role women have played in the 
Arab Spring, what these countries can do to protect their 
rights going forward, and what ways the U.S. involvement can be 
useful.
    I thank my colleague, Chairwoman Boxer, for her 
longstanding leadership and commitment to these issues and 
commend all of my colleagues on the passage of Senate 
Resolution 216 calling for women's participation in the Saudi 
elections.
    I also thank our distinguished witnesses for their 
participation and look forward to their testimony.
    Senator Boxer. Thank you so much, Senator, for those words. 
I think you have laid out some of the things we have to watch 
for as developments proceed. Thank you for that.
    So we are going to turn to the Honorable Melanne Verveer, 
Ambassador at Large for Global Women's Issues. Please proceed, 
Ambassador.

  STATEMENT OF HON. MELANNE VERVEER, AMBASSADOR AT LARGE FOR 
GLOBAL WOMEN'S ISSUES, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Verveer. Thanks very much, Senator Boxer, and 
thank you also to Senator DeMint for your comments, with which 
we wholeheartedly agree.
    I am pleased to be here today with my colleague, Dr. Tamara 
Wittes, who holds important positions at the State Department 
for the Middle East transitions and the MEPI program.
    In the interest of time, I ask that my testimony be placed 
in the record.
    Senator Boxer. Without objection.
    Ambassador Verveer. I also want to thank the Senators are 
the outset for the support that you have provided for 
Resolution 109, for a series of other related actions to 
highlight the critical role of women in the Arab Spring 
countries' transitions to democracy. When I was last in Egypt, 
the women told me what it meant to have others like yourselves, 
individuals with powerful voices, speak out on behalf of their 
own full political participation in their country.
    During the revolutions, women in Tunisia, Egypt, and Libya 
were on the front lines for freedom, dignity, democracy, and 
economic opportunity. They were on Tahrir Square. They were in 
the streets of Tunisia and across Libya standing shoulder to 
shoulder with the men as they struggled together to build a 
better future for all.
    Now they confront an equally difficult challenge as they 
work both to move their countries forward and to ensure that 
their own rights will not be jeopardized, challenges in some 
instances made harder by elements in their societies who no 
longer want to see them in the public square, certainly want to 
keep them out of the political process, and away from the 
decisionmaking tables.
    In her dealings with the transitional leaders, Secretary 
Clinton has consistently raised the essential role that women 
must play in the political and economic lives of their 
societies if the aspirations of the Arab Spring are to be 
realized. That is why we have strategically focused our 
resources, limited as they are, on democratic and economic 
reforms and ensured women's full participation.
    Moreover, we have met with members of the women's community 
in the post-revolutionary countries and listened to them. They 
are concerned and they want help in building their capacity to 
make a difference. We have made it possible for them to come 
together with other likeminded leaders in the region from the 
predominantly Muslim societies to learn from each other, and we 
have incorporated them into the community of democracies most 
recently bringing women leaders to Lithuania to the high-level 
special session during a ministerial that focused on women's 
political participation.
    We are also reaching out to other partners in academia, the 
private sector, governments, multilateral organizations to join 
in collaborations to protect women's human rights and to 
promote political and economic progress.
    We know from the experience of other societies in 
transition that when women play an active and inclusive role 
from participating in the drafting of new constitutions to 
engaging in government decisions to growing businesses, the 
whole country benefits. No country can get ahead if it leaves 
half of its people behind. This is not a favor to women. It is 
not simply a nice thing to do. Women's issues are everyone's 
issues. Democracy without the participation of women is a 
contradiction in terms, and economies without the inclusion of 
women will not prosper.
    Moreover, stability and the flowering of democracy in MENA 
region will say a great deal about our own future security 
interests.
    As the Nobel Peace Laureate from Yemen, Karmon told me 
recently because women are instrumental to a free country, it 
is in the interests of dictators to keep women excluded from 
politics.
    Let me just add that each of Tunisia and Libya ratified or 
acceded to the Convention to Eliminate Discrimination Against 
Women. One can hope that in the days and months ahead, they 
will make genuine progress on achieving its goals. The women 
certainly will use it as a lever with their new governments, 
and I believe that our voices would be that much stronger if we 
too ratified this women's human rights treaty.
    I look forward to discussing with you today some possible 
ways that we can continue to work together to support the brave 
women of the region, as well as the men who stand with them, 
for rights and freedoms. For instance, I would also suggest 
that when you travel to the region that you request that women 
leaders and local civil society activists be included in your 
discussions. Their perspectives will not only be invaluable but 
you will send a strong message about the central role that they 
can and must play.
    In closing, let me thank you again for shining a spotlight 
on the critical role that women are playing in the ongoing 
transition to democracy.
    [The prepared statement of Ambassador Verveer follows:]

            Prepared Statement of Ambassador Melanne Verveer

    Thank you. I am honored to be here this afternoon with my 
colleague, Dr. Tamara Wittes, to discuss the status of women in the 
Arab Spring and their participation in the political transitions in 
Tunisia, Egypt, and Libya. We also will talk about U.S. Government 
efforts to empower and enable the women to continue and enhance their 
participation in the political, economic, and social lives of their 
societies. The people of post-revolutionary Tunisia, Egypt, and Libya 
have a real opportunity to consolidate their hard-fought democratic 
gains, but this will not be possible if their women do not participate 
fully in the political process leading to democracy.
    I'd like to extend my thanks to Chairwoman Boxer and Chairman Casey 
as well as Senators DeMint and Risch for convening today's important 
hearing. I would also like to thank the Senate, particularly the women 
Senators on both sides of the aisle, as well as several male Senators, 
for your farsighted leadership on this issue. Senate Resolution 109 
reaffirms the rights and roles of the women in the Middle East and 
North Africa by declaring, ``The empowerment of women is inextricably 
linked to the potential of nations to generate economic growth and 
sustainable democracy.''
    It is those inextricable links that I would like to discuss here 
today. This year, the Nobel Peace Prize Committee highlighted these 
connections by recognizing three women who worked to bring peace and 
freedom to their countries. One of whom, Tawakkul Karman, is a leader 
in Yemen's struggle for democracy and human rights. When I met with her 
last week, she told me that Yemeni women, who used to be invisible in 
the public square, are now significantly engaged in the protest 
movement. She said that women are the solution for the myriad 
problems--political, social, and economic--facing the Arab world, and 
that the condition of a country is reflected in the condition of its 
women. Because she believes that women are instrumental to freedom and 
democracy, she stressed that ``it is in the interests of dictators to 
keep women politically excluded from politics.''
    I believe that many women woke up with the Arab Spring, and they 
will not go back to sleep. In Tunisia, which held its first fully 
democratic election on October 23, women won around 25 percent of the 
seats in the new Constituent Assembly. Egypt has begun its election 
season, and women are plunging into the political fray. New 
constitutions will come from the assemblies constructed in these 
elections, and it is vital that gender equality to be enshrined in the 
constitutions at the very beginning. In Libya, after four decades of 
brutal dictatorship and 8 months of struggle for liberation, in which 
women played a vital role, the Libyan people can celebrate their 
freedom and the beginning of a new era of promise.
    Democracy is often messy. There are people who will advocate 
positions and policies for their countries with which we will disagree. 
All three North African countries are still works in progress. Most 
recently, when proclaiming Libya's liberation, National Transitional 
Council Chairman Mustafa Abdul-Jalil said that certain laws, such as 
those restricting polygamy, would be voided on the basis of Sharia. 
Libya's women reacted with outrage. As one noted, ``these declarations 
created feelings of pain and bitterness among women who sacrificed so 
many martyrs.'' After the chairman's comments, rightly, triggered 
domestic and international uproar, the Transitional Council quickly 
clarified that there was ``no chance'' that Libya would become a 
theocracy. Across the region, these new governments are still learning 
the requirements of human rights and democracy while, at the same time, 
balancing the expressed desires of their progressive and conservative 
citizens. This is not only a critical moment to engage these emerging 
leaders in building sustainable new democracies but also the time to 
support women's human rights and to advance women's progress. Each 
country will evolve differently.
    According to the Arab Development Report, ``forging bonds of equal 
citizenship among all members of society, and establishing government 
by rule of law in Arab countries are prerequisites for addressing 
political, social, and personal insecurity.'' The report makes clear 
that the lack of women's political and economic participation is one of 
the key reasons for the region's underdevelopment. Different countries 
have heeded the recommendations of this report to varying degrees. In 
Tunisia, all the major political parties made pre- and post-election 
promises endorsing full citizenship and according rights and duties for 
all Tunisians. We will hold them to their word. In Egypt, the best-
organized parties seem unconcerned about the need to include women as 
candidates, and party leaders have made almost no effort to champion 
women's rights. And in Libya, the transition authorities have yet to 
bring women into the political process in any significant way; however, 
we continue to press for their full participation.
    When women are discriminated against in the political arena, their 
experiences, talents, and perspectives are shut out. This will affect 
the new democracies not just in the political arena but also 
economically and socially, diminishing the prospect for a free and 
secure future. The transitions will be both political and economic, and 
women in leadership positions can only help to overcome the disturbing 
economic legacies left by decades of dictatorship by improving 
productivity and increasing economic opportunities. Studies show that 
women-run small and growing businesses are accelerants of economic 
growth and women's increased participation in the workforce grows 
economic prosperity.
    Women in Tunisia, Egypt, and Libya played a frontline role in 
bringing down entrenched dictatorships. They were in Tahrir Square, in 
the streets of Tunisia, and across Libya standing shoulder to shoulder 
with the men, struggling for a better future. However, there are actors 
in these societies who clearly intend, and even often vocally express 
their desire, to push women back. Some claim the West is trying to 
impose its values on the Arab people by promoting women's rights, but 
this is neither a Western issue, nor an Arab issue, nor a religious 
issue. It is a matter of universal human rights. As Tawakkul reminded 
me, women across the region are fighting not just for women's rights, 
but for human rights and human dignity.
    Shortly after the events unfolded in Egypt and Tunisia, I met there 
with women who had been on the front lines yet who were now struggling 
to take their rightful place in building their countries' futures. The 
Egyptian women worried about how the post-revolution process was 
unfolding and the Tunisian women had concerns about preserving their 
rights. More recently, I spoke to Libyan activists who had run supplies 
to the rebels and sold their homes for medical supplies. All these 
women told me they fought for freedom and democracy. The people's 
revolutions of Tunisia, Egypt, and Libya were and are struggles for the 
universal values of equality, freedom, and opportunity for all.
    As these new democracies evolve, the United States and the wider 
international community must stand ready to help them build 
representative governments from the ruins of tyranny. As the new 
leaders emerge, we must clearly communicate that democracy without the 
full participation of half its population is a contradiction in terms 
and that an economy without the inclusion of women will not prosper. 
Women on the front lines of these transitioning countries themselves 
are sending this message, and they deserve our recognition and support 
for what they have done and are doing to strengthen their nascent 
democracies and to create more vibrant and equitable societies.

                   THE SITUATION OF WOMEN IN TUNISIA

    Tunisians can be rightly proud of their recent elections. Women and 
men, young and old, voted in large numbers across the country. Results 
indicate that women won around 25 percent of the seats in the new 
Constituent Assembly. Tunisia has a long and storied history of women's 
rights. It was the first Arab state to abolish polygamy; the first to 
grant women professional rights; and it was at the forefront in 
establishing progressive family laws. Women took an active and visible 
role in administering the October election; many of the polling station 
workers were women, and some were station chiefs.
    We do not know what direction Tunisia will take as the political 
parties begin coalition negotiations to form the country's first 
democratically elected government. All political parties who won 
significant seats responded to Human Rights Watch's preelection survey 
indicating their support for the principles of gender equality and 
nondiscrimination. They all, including the moderate Islamist al-Nahda 
party, favored maintaining the country's progressive personal status 
codes which grant Tunisian women the same rights as Tunisian men. Since 
its election into the Constituent Assembly, al-Nahda has also publicly 
expressed its disinclination to impose a conservative dress code upon 
Tunisian women. These are all promising signs. Tunisian civil society 
is working to build the skills necessary to stay vigilant and to hold 
their government accountable. Support for Tunisian civil society 
coupled with diplomatic engagement will provide a concrete opportunity 
to positively affect the new government and help Tunisia join the 
community of democracies.
    During the transition, Tunisia's Ministry for Women's Affairs, 
though small, was active in promoting voter education for women for the 
Constituent Assembly elections. This Ministry has also worked to assist 
businesswomen in rural, oft-neglected parts of Tunisia to start up 
enterprises through microcredit. Throughout Tunisia, several women's 
civil society groups have been established since the January 14 
revolution, providing a range of social services, including civic and 
voter education. In this period of democratic transition, which has 
provided all Tunisians greater freedom of expression, these civil 
society groups are working tirelessly to maintain the strong role 
Tunisian women traditionally played in their society.

                    THE SITUATION OF WOMEN IN EGYPT

    As Egypt's transition unfolds, there are fears that the previous 
gains made by Egyptian women will be reversed and that they will be 
increasingly excluded from the process. Although women played a 
significant role in the protests that brought down Hosni Mubarak, the 
role of women in Egypt's governance during the transition has been very 
limited. No women were included on the committee that drafted Egypt's 
transitional constitutional declaration, and only one female minister 
serves in the Cabinet. In the continuing protests after the fall of 
Mubarak, there have been several disturbing incidents. On March 8, 
hundreds of women were attacked when they gathered in Tahrir Square to 
call for a greater voice in Egypt's transition. In May, when the 
military cleared Tahrir Square, it arrested and detained dozens of 
female demonstrators, subjecting them to degrading and dehumanizing 
from Tahrir, it reportedly conducted ``virginity tests.'' The 
transitional government promised it would not happen again, but it has 
not apologized.
    In late July, during a reshuffle of provincial governors, the 
ruling Supreme Council of the Armed Forces did not appoint any female 
governors. The Minister of Local Development even claimed that women 
could not be appointed governors because they would not be able to go 
out into the streets in the current security environment to address 
social problems. The SCAF also removed the 64-seat parliamentary quota 
and dismantled the Ministry of Women's Affairs.
    There is now no evident champion for women's rights in the Egyptian 
Government; compounding this challenge, some Egyptians are criticizing 
previous gains, like the progressive laws on divorce, and against 
female genital cutting and child marriage, as tainted because of Mrs. 
Mubarak's work on the issue. They refuse to recognize them as the 
decades-long work of Egyptian women leaders. Moreover, some 
conservative political and social forces are taking advantage of 
Egypt's more open political environment to call for a rollback in 
women's rights.
    In spite of these setbacks, Egyptian civil society organizations 
have defended the role of women in the transition and are advocating 
for reforms that protect women's rights. In June 2011, the United 
States promoted a conference in Cairo, cosponsored by International 
IDEA and U.N. Women, to raise the profile of women's rights in 
democratic transitions. Egyptian participants at this conference 
produced a charter asserting their right to play a role in shaping the 
next Egyptian Constitution and to be treated equally by the government. 
Following the conference, Egyptian women's rights groups have continued 
to publicly raise their concerns about the exclusion of women from 
power. Even with all these hurdles, women will take part in the 
upcoming elections as voters, candidates, and political party members, 
and the U.S. Government is supporting such efforts.

                    THE SITUATION OF WOMEN IN LIBYA

    Women played a determinative role in the liberation of Libya. Since 
the first days of the revolution, when Libyan women formed sewing 
circles to create the ubiquitous independence flags, Libyan women have 
been at the heart of the struggle. Women leaders founded some of the 
most promising and effective nonprofit initiatives. They are now asking 
for our help in developing the leadership skills they need to take a 
strong role in the new Libya. They will be crucial as a new Libyan 
state and society take shape.
    I recently met with one of the women active in the revolution. At 
the end of 2010, she had just left Libya to take a lucrative position 
in Dubai when the revolution began on February 17, 2011. Within days, 
she went from frantically trying to stay in touch with her family in 
Libya, to setting up an antiregime media center in Dubai, to running a 
logistical cell for the rebellion in Malta. She has now returned to 
Tripoli to be a part of the new Libya. When I asked her if she had 
encountered resistance from revolutionaries on the ground, she told me 
that the liberation fighters not only wanted, but expected people like 
her ``to rebuild our country as it should be.''
    There are small, but very active, groups of women across the 
country who expect to take their place in the leadership of the new 
Libya. For example, a Benghazi-based professional women's committee is 
supporting women's participation in the new democracy. Other women-
dominated groups are working to restart the health and education 
sectors. Politically, the discourse regarding women's rights and the 
role of women is at a nascent stage and here the international 
community can help build the foundation for full and equal citizenship 
for all Libyans.
    When Secretary Clinton met with leaders of the Transitional 
Council, she laid out clear expectations for the full and 
representative participation of women in the transition, and it will be 
the Libyan women themselves who will decide the roles they will play in 
the new Libya.

                       WOMEN, PEACE, AND SECURITY

    What we know from other societies in transition is that when women 
play an active and inclusive role in societies--from participating in 
the drafting of new constitutions to rebuilding economies--the whole 
country benefits. As we saw in South Africa, Rwanda, and elsewhere, 
women's full participation improves governance, reduces conflict, and 
increases economic prosperity. Eleven years ago, the U.N. Security 
Council unanimously adopted Resolution 1325, recognizing the importance 
of women's representation at all levels of conflict resolution, post-
conflict peace-building, and governance. We have witnessed the capacity 
of women as peacemakers in each of these revolutions. In Tunisia, women 
have been vital in the push for fair representation and gender parity 
in constitution-building and the electoral process. In Egypt, women 
were essential in ensuring that acts of revolution and protest remained 
peaceful. Now in Libya, where women played critical roles in 
revolution, they stand ready to create a new and democratic society. 
The act of participation has irreversibly changed the role of women in 
these societies. It is imperative that the international community 
actively support these women to get the skills they need to play a 
representative role in the political transitions.

                     U.S. SUPPORT FOR WOMEN LEADERS

    Just a few weeks ago, when Secretary Clinton was at the United 
Nations for the opening of the General Assembly, she attended a special 
meeting with female heads of state and Foreign Ministers on women's 
political participation and the Arab Spring. The leaders signed a joint 
resolution that stressed ``the critical importance of women's political 
participation in all contexts, including in times of peace, conflict 
and in all stages of political transition.'' Later that week in 
addressing heads of state from around the world at the opening of the 
General Assembly, President Obama noted that ``no country can realize 
its potential if half its population cannot reach theirs'' and called 
on all nations ``announce the steps we are taking to break down the 
economic and political barriers that stand in the way of women and 
girls'' within the next year.
    While visiting Egypt and Tunisia, in forums large and small, 
numerous women told me that leadership training programs enable them to 
be effective candidates for national and local offices. Moreover, 
because of the many obstacles to their obtaining political power, women 
need strong and broad alliances to enable them to surmount the various 
barriers.
    Civil society activists require capacity-building support for the 
range of needs that they confront. One of the key ways that women have 
gained access to power is through their engagement with NGOs. Many have 
developed the leadership skills and relevant experience to run for 
office through their work with national and international NGOs. Another 
area of need is capacity-building for governance; it is not enough to 
be elected or to be appointed to government service without the ability 
to exercise that responsibility effectively. To address this need, the 
United States has invested in programs to strengthen the skills and 
leadership abilities of female parliamentarians and other elected 
officials.
    Through our efforts to ensure that women are integral to all 
aspects of U.S. foreign policy, we have indentified ways to increase 
women's opportunities for political empowerment, participation, and 
decisionmaking. Many U.S. trainings, exchanges, and small grants 
programs are aimed at improving women's political participation and 
leadership abilities.
    We believe that a further step that would send a powerful and 
unequivocal message of support to the women in the region is for the 
United States to ratify the Convention on the Elimination of All Forms 
of Discrimination Against Women. This treaty reflects the fundamental 
principle that women's rights are human rights. U.S. ratification would 
lend much-needed validation and support to advocates around the world, 
including in the Middle East region, who seek to replicate in their own 
countries the strong protections against discrimination that we have in 
the United States. Some governments use the fact that the United States 
has not ratified the treaty as a pretext for not living up to their own 
obligations under it. We would eliminate this frequently heard excuse 
by opponents of women's rights in many countries by ratifying this 
important treaty. Tunisia and Egypt have signed and ratified the 
Convention while Libya has acceded to it. Women in these countries will 
continue to use their countries' ratification of the Convention as a 
lever to move their new governments to protect women's human rights.
    I believe we have a responsibility to do everything we can to 
support these new democracies. In doing so, we contribute to their 
viability, peace, and security. And I believe that stable and 
prosperous democracies in the Arab world will directly contribute to 
our own national security.

                               CONCLUSION

    Women's participation in civil society and government 
decisionmaking are key ingredients to building democracy. It is a 
simple fact that no country can progress or prosper if half its 
citizens are left behind. Progress for women and progress for democracy 
go hand in hand. This is also true for the economy. One of the best 
indicators for the overall economic health of any country is the 
economic and educational attainment of women.
    My distinguished colleague, Deputy Assistant Secretary Wittes, will 
go into more depth about U.S. specific efforts in Tunisia, Egypt, and 
Libya in her remarks. Let me reiterate the urgent need to support women 
at this critical juncture in history. We must support them publically 
and privately. We must empower them politically and economically.
    Women everywhere continue to face challenges and barriers to 
productive participation in political engagement and government. But 
this is particularly acute as countries transition from decades under a 
dictatorial order to a new world of democratic possibility. Tunisia was 
a middle-income country with a long tradition of empowered women. Its 
needs are specific and limited. Egypt, on the other hand, has a wider 
range of more challenging obstacles; nonetheless, the potential for 
progress is there. Lastly, Libya is a rich country, but it is emerging 
from a brutal conflict that has traumatized thousands; so its future, 
while hopeful, is uncertain.
    The message of support communicated by this hearing, which builds 
on the bipartisan actions taken by the Senate to support women's full 
and equal participation in the new democracies of the Arab world, is of 
great significance not only to the women and men of the region but to 
the entire world. We should not underestimate the power of our unified 
global voice for the rights and freedom of women and minorities.
    The State Department and USAID are deeply committed to helping 
these new democracies. This means full citizenship for all citizens, 
regardless of gender, sect, or ethnicity. We embrace the opportunity to 
continue to promote women's empowerment and participation at all levels 
of society. We will work in partnership with our embassies overseas to 
identify and support emerging women leaders and defenders of democracy. 
This task requires collaboration and leadership at all levels of the 
U.S. Government and with the international community. And it also 
requires partnership with the Congress to ensure that women in the 
region know that the full weight of the American people support their 
pursuit of freedom. Through these efforts, more women will be able to 
take part in the democratic transition and serve as trailblazers for 
future generations.

    Senator Boxer. Thank you so much.
    And Dr. Wittes, Deputy Assistant Secretary for Near Eastern 
Affairs and Deputy Special Coordinator for Middle East 
Transitions. Welcome.

STATEMENT OF DR. TAMARA WITTES, DEPUTY ASSISTANT SECRETARY FOR 
NEAR EASTERN AFFAIRS AND DEPUTY SPECIAL COORDINATOR FOR MIDDLE 
   EAST TRANSITIONS, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Dr. Wittes. Thank you very much, Chairwoman Boxer and 
Senator DeMint. I am very honored to be here and I want to 
commend you also for holding this very timely and very 
important hearing. And I would ask that my full statement be 
entered into the record.
    Senator Boxer. Without objection.
    Dr. Wittes. I am also very honored to be here with 
Ambassador Verveer who is a tenacious and invaluable partner in 
all of our efforts to advance women's empowerment and women's 
inclusion in the Middle East. She has already communicated the 
key point that Secretary Clinton has underscored throughout the 
Arab Spring, which is that the full participation of women is 
an essential ingredient for any democracy. Therefore, we are 
committed to championing women's full participation in the new 
democracies now emerging and in the reforms that are underway 
across the region.
    There is no question that this period of transformative 
change carries with it some anxiety. The transitions that are 
underway are uncertain and in some places citizens are facing 
intense repression from their own governments in response to 
their legitimate demands. It is crucial that the U.S. 
Government stays engaged to support these democratic 
transitions and democratic change across the region.
    This moment of change presents a great strategic 
opportunity for the United States for three reasons.
    The first is about stability. We have an opportunity now to 
help promote a lasting stability in the Middle East that will 
only come through democratic and economic reforms that will 
write a new social contract between governments and citizens.
    The second reason is about democracy. Democracies give 
people a stake in their governance. They weaken the appeal of 
those who call for violence, and globally, democracies are 
stronger partners for us as well.
    And finally, we see a strategic opportunity in these events 
because of the way they came about, because of the Arab world's 
rising generation of young men and women who have put forward a 
powerful repudiation to the narrative of extremists who preach 
violence and confrontation as the only means to achieve change.
    Now, we have realigned our resources to promote democratic 
and economic change across the region and to strengthen those 
within Arab societies who are working for change. Many of those 
civil society leaders are women, and we want to support their 
efforts.
    Let me speak briefly about some of the efforts we have 
underway in Tunisia, Egypt, and Libya specifically. My written 
testimony includes a number of examples, but I will focus in on 
just a few.
    In Tunisia, we supported a campaign called ``Get Out and 
Vote,'' which was designed to encourage women of all ages, 
backgrounds, and means to vote and participate in Tunisia's 
recent democratic elections and to work with the media to look 
at the way they cover women in the campaign.
    We are also supporting the American Bar Association and 
their Tunisian partners in preparing a national forum in 
Tunisia that will take place soon on the role of women in 
democratic transitions, drawing lessons from other countries. 
Participants will include women jurists, rights groups, civil 
society organizations, political party representatives, and 
others.
    In Egypt, the United States is working to ensure that women 
play a central role in the definition of rules and institutions 
for Egypt's new democracy. In the past several months, more 
than 200 women from a diverse array of political parties have 
taken advantage of U.S. Government-funded training programs 
which are offered on a nonpartisan basis. These trainings 
provide everything from lessons on how to confidently deliver a 
stump speech to skills that will help candidates build 
campaigns that resonate with voters.
    In Libya, the end of Qaddafi's tyranny has unleashed the 
power of civil society, and some of the most promising and 
effective nonprofit initiatives have been founded by women 
during the conflict. We are already offering our support to 
newly emerging NGO's in Libya, as well as to those who want to 
create new political parties to compete in Libya's planned 
elections. And we will continue to focus on ensuring that 
Libyan women are active beneficiaries of all our efforts there.
    Our work in these three countries in transition is just one 
aspect of our regionwide focus on empowering women and girls. 
For the Middle East Partnership Initiative, which I supervise, 
women's empowerment has been a core focus since MEPI was 
founded in 2002. Right now, MEPI is supporting the 
International Republican Institute's new Arab Women's 
Leadership Institute. This is a project that is training women 
leaders, both elected officials and civil society leaders, 
across North Africa in coalition-building and advocacy skills.
    Without a doubt, the final outcome of these democratic 
transitions is uncertain, but because we believe that this 
democratic transformation is profoundly in our interests, we 
are committed to remaining engaged and to providing the 
necessary long-term support for women in these countries who 
are already working as agents of positive change.
    We look forward to working with you, our partners in 
Congress, to ensure that we can sustain our urgent support in 
the Middle East through this historic period.
    Thank you. I look forward to your questions.
    [The prepared statement of Dr. Wittes follows:]

             Prepared Statement of Dr. Tamara Cofman Wittes

    Thank you, Chairwoman Boxer, Chairman Casey, Senators DeMint and 
Risch and the other members of the subcommittees for inviting me to 
speak to you today. I am honored to be here, and commend you for 
holding this timely and important hearing.
    I would like to acknowledge the achievements of the women you have 
invited to testify in the next panel. Women have been at the forefront 
of the revolutions across the region, and I am grateful to hear their 
perspectives.
    I am also very honored to be here with Ambassador Melanne Verveer, 
who is a tenacious and invaluable partner in our efforts to advance 
women's empowerment and women's inclusion--globally and in the Middle 
East in particular. She has already communicated the key point that 
Secretary Clinton has underscored throughout the Arab Spring--that the 
full participation of women is an essential ingredient for any 
democracy.
    Therefore, we are committed to championing women's full 
participation in the new democracies now emerging, and in the reforms 
that are underway across the region. The administration's whole-of-
government approach demonstrates our belief that the women of Egypt, 
Tunisia, and Libya are essential partners in any successful transition.
    The democratic transitions underway in Tunisia, Egypt, and Libya, 
and the pressures for democratic change across the region, present a 
great strategic opportunity for the United States, for three reasons.
    The first reason is stability, which is crucial to the pursuit of 
all our longstanding interests in the Middle East. The dramatic events 
of this spring were driven by deep, underlying trends in Arab 
societies. As Secretary Clinton noted nearly a year ago, last January 
in Doha, the status quo in the region was not stable. We have an 
opportunity now to help promote lasting stability in the Middle East--
stability that will only come through democratic and economic reforms 
that will write a new social contract between governments and citizens.
    The second reason we see an opportunity in the events of the Arab 
Spring is about democracy. As you all know well, where democracy and 
democratic freedoms are valued, the world also gains in security. 
Democracies give people a stake in their governance and weaken the 
appeal of those who call for violence. We see the changes underway in 
Tunisia, Libya, and Egypt as an opportunity to support the emergence of 
more democratic states, which will be stronger partners for the United 
States in advancing our shared interests in security, stability, and 
prosperity for the region and the world.
    Finally, we see a strategic opportunity in these events because of 
the way this change has come about, and who is driving it--the Arab 
world's rising generation of young people. The disciplined and 
determined young men and women who are driving the Arab Spring have put 
forward a powerful repudiation to the narrative of extremists who 
preach violence and confrontation as the only means to achieve change. 
They have also put forward their own indigenously generated, positive 
vision for the future of the Middle East, a future defined by dignity, 
freedom, and opportunity. We have a keen interest in seeing that 
positive vision succeed.
    The recent announcement of three courageous women receiving the 
Nobel Peace Prize is the latest affirmation of women's ability to 
advance human progress and human rights in the region and around the 
world. As Secretary Clinton noted, the three winners--including one 
from Yemen--``are shining examples of the difference that women can 
make and the progress they can help achieve when given the opportunity 
to make decisions about the future of their societies and countries.'' 
As you may know, one of those Nobel Prize winners, Tawakkul Karman from 
Yemen, is an alumna of the Department's Middle East Partnership 
Initiative (MEPI), and also participated in State Department exchange 
and visitor programs. I met with Tawakkul last week in the State 
Department, and we discussed the absolute determination of the Yemeni 
people to see a political transition that is not merely a change of 
leadership but that ushers in real participation, and real justice for 
the Yemeni people.
    There is no question that this period of transformative change 
carries with it some anxiety. The fate of the region's democratic 
movements is uncertain, and in some countries citizens are facing 
brutality and repression from their governments in response to their 
legitimate demands. And the democratic transitions now beginning in 
Tunisia and Egypt and Libya are far from complete. So it's crucial that 
the United States Government stay engaged to support these democratic 
transitions and democratic reforms across the region. Let me tell you a 
little bit about what we are doing to further that goal.
    The events unfolding in the Middle East are the foreign policy 
challenge of our time. In response to and in support of these 
transitions, the U.S. Government has rededicated its efforts to assist 
the people of the Middle East and North Africa as they create more 
participatory, prosperous and pluralistic societies. We have realigned 
our resources to promote democratic and economic reforms across the 
region and to strengthen those within Arab societies who are advancing 
change. Many of those civil society leaders, like Tawakkul, are women, 
and we want to support their efforts.
    The Department of State has also created a new Office of Middle 
East Transitions with Ambassador Bill Taylor at the helm as 
Coordinator. This office is tasked with ensuring U.S. assistance to 
transition countries is coordinated and prioritized across all agencies 
and programs. We know that resources are limited, and that with so much 
at stake in the region, we need to be efficient and make every dollar 
count. In addition to my regular duties as the Deputy Assistant 
Secretary responsible for democratic reform in the Middle East, I now 
also have the privilege of serving as Deputy Coordinator for this 
office. So I come to you with a very clear view of the efforts we are 
undertaking to support successful democratic transitions in the region 
at this critical time.
    As you know, I supervise the Middle East Partnership Initiative 
(MEPI), which is located in the State Department's Bureau of Near 
Eastern Affairs. MEPI has had women's empowerment as one of its key 
priorities since it was first founded in 2002. I'm delighted to have 
this fantastic program as one of the key tools we are using to support 
women during the political transitions across the region. Let me speak 
briefly about some of the efforts we have underway in Tunisia, Egypt, 
and Libya specifically.

                                TUNISIA

    As Ambassador Verveer noted, Tunisia's women have a proud history 
as active participants in their country's political, social, and 
economic life. When Ben Ali fled Tunisia in January, MEPI mobilized the 
bulk of our initial U.S. Government response to support civil society 
and election preparation in Tunisia--and in all of that work, women's 
inclusion and women's participation is a constant theme. Indeed, some 
of MEPI's longstanding partners in Tunisia, who operated under 
significant constraints previously, became crucial players in the work 
of voter education this year. A singular example is CAWTAR, the Center 
for Arab Women Training and Research. With MEPI support, they are 
promoting women's rights in Tunisia through media, trainings, and 
public debates.
    The American Bar Association is another important MEPI partner in 
Tunisia in advancing women's political inclusion. Later this year, they 
will be hosting, with their Tunisian colleagues, a national forum on 
the role of women in transitional processes focusing on comparative 
experiences; women's rights in law and constitutional reform; and 
advocacy for law reform. Participants will include women jurists, 
rights groups, civil society organizations, and political party 
representatives, among others.
    MEPI is just one program undertaking efforts to support the 
political, economic, and social participation of women in Tunisia. 
USAID's Office of Transition Initiatives supported a ``Get Out and 
Vote'' campaign designed to encourage women of all ages, backgrounds, 
and means, through mainstream and new media channels, to vote and 
participate in Tunisia's democratic reform process.
    The Bureau for Democracy, Human Rights, and Labor (DRL) is 
supporting programming in Tunisia, on transitional justice and 
independent journalism, including a project to empower women in civil 
society and media.

                                 EGYPT

    In Egypt, the United States is working with international as well 
as Egyptian organizations to ensure that the gains made in women's 
legal rights before the revolution are not lost, and that women play a 
central role in the definition of rules and institutions for Egypt's 
new democracy.
    USAID is focusing on women's issues across all its programs in 
Egypt. USAID is bringing together women-led civil society organizations 
from all governorates in Egypt to strategize on ways they can improve 
women's participation in elections and political parties. These 
conversations are specifically focused on increasing the participation 
of women candidates before the upcoming parliamentary elections. During 
this time of transition, USAID is continuing its crucial work to 
improve maternal and child health, combat violence against women, and 
extend equal access to justice and education for women and girls. On 
the economic front, USAID partners will provide 1,000 new business 
loans within the next 12 months in Qena, one of the poorest, least 
served areas of Egypt, to spur job creation and to increase employment 
opportunities for the poor. Women are slated to receive about 60 
percent of these loans.
    MEPI is working with Vital Voices to create a network of women 
activists across the region, and to help Egyptian women's groups 
develop their priorities for legislative change. MEPI's local Egyptian 
partner, the Egyptian Association for Community Participation 
Enhancement, is training younger women as future leaders, and 
encouraging women to vote in the upcoming parliamentary elections.
    Other State Department programs assist women who want to compete in 
the newly open political process. In the past several months, more than 
200 women from a diverse array of political parties have taken 
advantage of U.S. Government-funded training programs, which are 
offered on a nonpartisan basis, and which provide everything from 
training on how to confidently deliver a stump speech--to 
organizational skills that will help them sharpen their party platforms 
and build campaigns that resonate with voters.
    The Bureau of Democracy, Human Rights and Labor is working with the 
International Labor Organization to strengthen women's participation in 
key labor market institutions. This project will help women and 
employers, along with government institutions, become more practiced in 
fundamental labor rights and procedures, giving more women the chance 
to enter the labor market, and building the capacity of Egyptian 
businesses to offer decent work to women.

                                 LIBYA

    Since the first days of the revolution, when Libyan women formed 
sewing circles to create the ubiquitous independence flags, Libyan 
women have been at the heart of the revolution. Some of the most 
promising and effective nonprofit initiatives have been founded by 
women leaders. Wafa and Hana Gusbi, twin sisters and previous U.S. 
Embassy Public Affairs grant recipients, cofounded Wafa Charity 
Organization. The Gusbis left for Tunis in May 2011 and, utilizing the 
skills they learned through managing their earlier USG-funded project, 
they have organized social programs for Libyans living in exile--
serving up to 20,000 hot meals per day to refugees during Ramadan. Now 
is the time to demonstrate to these women our support for their 
efforts.
    In Libya, we are working through the United Nations Special Mission 
in Libya to target our assistance to priorities identified by the 
Libyans themselves. But we have already begun to offer our support to 
the newly emerging NGOs in Libya and to support those who want to 
create new political parties to compete in Libya's planned elections. 
We will continue to focus on ensuring that Libyan women are active 
beneficiaries of our efforts.

                                REGIONAL

    Our work in these three countries in transition is just one element 
of our regional focus on empowering women and girls.
    Through MEPI, and working with democratic partners around the 
globe, we continue to promote further progress in women's political, 
economic, and social participation. Through the Community of 
Democracies' Working Group on Gender Equality, which Ambassador Verveer 
cochairs with the Lithuanians, the United States is taking a leadership 
role in promoting gender equality and good governance, with a 
particular focus on the Middle East and North Africa. Under the 
auspices of the working group, the United States is partnering with the 
Dutch Government to conduct dialogues with civil society leaders and 
academics from across the region to better understand the priorities of 
women in transitioning societies and how the United States and the 
international community can best assist them.
    Working with the International Republican Institute, MEPI is 
supporting the Arab Women's Leadership Institute, which assists women 
leaders across North Africa to maximize their political gains during 
periods of transition. In countries undergoing reform or transition, 
the Leadership Institute is providing female officials currently in 
office, candidates for office, and civil society leaders with models of 
good governance and coalition-building to help them realize the reforms 
their constituents are demanding. In addition, the Institute is giving 
women civic leaders advocacy skills so they can fight for equal social 
and political rights for women as their countries define new rules of 
the road in politics.
    The U.S. Government is also supporting the Middle East and North 
Africa Women's Business Forum of the Organization for Economic 
Cooperation and Development (OECD). This group accelerates the 
development of women's entrepreneurship in the region.
    Without a doubt, the final outcome of the region's democratic 
transition is uncertain. But because we believe that democratic 
transformation in the Middle East is profoundly in our interests, we 
are committed to remaining engaged and to providing the necessary long-
term support for women in these countries who are already working as 
agents of positive change. In his May 2011 speech, President Obama 
said, ``History shows that countries are more prosperous and more 
peaceful when women are empowered.'' This is a guiding principle for us 
as we support democratic transitions in the Middle East.
    We look forward to working with you, our partners in Congress, to 
ensure that we can sustain our urgent support the Middle East in this 
historic moment.

    Senator Boxer. Thank you. I will get it started.
    This is to both of you, if you wish to comment. I hope you 
will. It is clear from your comments and those from my 
colleague and myself that women are playing a significant role 
in the protest movements that have swept across the Middle East 
and North Africa. And they have stood side by side with their 
husbands, their fathers, their brothers, and their sons to 
demand a better future. But we, as you point out, Dr. Wittes, 
do not know exactly what that future is. So all of us want to 
make sure that it is a positive future.
    How can we be that prodding presence, if you will, that is 
a constant echo in these countries because there are some 
really good things happening and some very troubling things. 
Senator DeMint went through a couple of the troubling things. 
In Egypt, Tunisia, and Libya, we can talk about some of the 
positive signs.
    Tunisia required that female candidates account for half of 
all candidates running for election in the constituent 
assembly; 4,000 women ran for the first time.
    An Egyptian woman announced she will be the country's 
first-ever female candidate for President.
    In September, the president of the Libyan Transitional 
Council applauded the role of women and proclaimed, ``that 
women will be ambassadors and ministers.''
    But there are troubling events.
    In Egypt, a new election plan was put forth that may result 
in very few seats for women. And in March, a group of Egyptian 
women protesters were rounded up, arrested, and subjected to 
invasive ``virginity tests.''
    Only one woman currently sits on the National Transitional 
Council in Libya, and recently Libya's transitional leader 
indicated that a law banning polygamy will be overturned. 
Senator DeMint talked about that. So there is a deep cause of 
concern in the international community, and some are even 
suggesting a dark future for women.
    So what I want to get at is--what are the levers that we 
have? For example, if you look at Egypt, in March Amnesty 
International reported that Egyptian army officers brutally 
abused 18 women protesters. According to Amnesty, the women 
were beaten, given electric shocks, subjected to strip searches 
while being photographed by male soldiers, forced to submit to 
virginity checks, and threatened with prostitution charges. The 
torture and abuse of Egyptian women by officers who should have 
been protecting them is deplorable. That is putting it mildly. 
I could really go on and on about how I feel about this, but I 
will not in the interest of time.
    The United States is looked to as a leader in human rights, 
and the subcommittee I chair is dedicated to, for the first 
time ever, the status of women worldwide. The Obama 
administration has requested $1.3 billion in military 
assistance for Egypt in 2012, and we know that we are going to 
be giving aid to these countries. How can we leverage our 
financial role in Egypt to ensure that the Egyptian military is 
meeting benchmarks, including respect for women's rights? How 
can we leverage any funding we give to these other nations? 
Because I can tell you right now I am not going to give a blank 
check to some of these countries that are doing these things. 
So how can we work together to make sure that they take the 
right path, and what are our leverage points?
    We will start with you, Ambassador Verveer. We will move to 
Dr. Wittes next.
    Ambassador Verveer. Well, you know, Senator Boxer, you just 
laid out so starkly how even though there is a sense of great 
possibility, that there is a sense that life will be better for 
the people who were part of the uprisings that took place, 
there is much that is unclear about the future. We do not have 
a sense of where this is headed. But we can, as you said, take 
advantage of those leveraging opportunities to really engage in 
ways that hopefully will have a positive impact because we 
cannot direct the outcomes of elections. We cannot select the 
candidates. We have very little role that we can play as an 
outside power, though we are, that in the end will not be 
decided but by the very people who live and care about their 
futures in those countries.
    So to reiterate, I would say first and foremost to 
constantly raise these issues, as we have been raising them, 
from the highest levels of our own Government on through the 
regularity of visits and conversations and meetings that are 
taking place at all levels, that these issues of human rights, 
women's rights, freedom of speech, religion, assembly, the 
values that are core democratic principles, that they be stated 
time and time again because an election does not create a 
democracy. One election does not create the new future. So this 
is going to be a series of steps.
    So I think, first and foremost, to be out there constantly 
and not to lower our voices when it comes to matters that are 
of such great importance.
    Second, to be very strategic about how we do provide the 
assistance that we provide. As you heard from Dr. Wittes, we 
are trying to steward our resources in a way that can have the 
greatest impact.
    What I hear, when I meet with the women, over and over is a 
recognition that we cannot wave a magic wand, but we can help 
them be much more resourced, capacitized, abled, skilled to be 
the leaders that they know they need to be, to be strategic, to 
be present, whether it is use of the media or it is being 
active in the political process because the doors are opened 
and closed by varying degrees in all of these countries. None 
is exactly the same in its situation, generally speaking and 
specifically, about the state of its women. So we believe that 
being able to provide resources that are directed in these ways 
will have a positive impact.
    And frankly, while what happened in the Arab Spring was 
definitely organic and domestic, uniquely brought about by the 
people of the region, we have made investments over the years 
in building civil society, and I think in the end it is civil 
society that will either enable these countries to move forward 
in a significant way or have them push back in ways that we 
will all feel have not turned out.
    You know, I was talking to one of our panelists who is 
coming up on the second panel, Mahnaz Afkhami, who was the 
Minister for Women in Iran at the time of the revolution, and 
as she was mentioning, nobody thought that revolution was going 
to create the theocracy and the kind of Iran that exists today. 
So I think we have to figure out how best to engage certainly 
in terms of our leadership, certainly in terms of capacity-
building.
    And I would add that a great deal of this was about 
economic opportunity. And if lives are not made better in the 
process, that will make it a lot harder for the kind of 
positive outcomes I think everybody wants to see. So we also 
see economic reforms, and I would say particularly giving women 
opportunities. We know from all of the data that exists today 
that women who run small and medium-sized businesses are 
accelerators of GDP, that women have to be part of the economic 
process. And more often than not, they frankly do not appear in 
the discussions about what to do in terms of economic reforms. 
But we have made them a significant part of our efforts.
    So there are no perfect solutions, but as you said, to 
utilize the levers that we have, to utilize them wisely, to 
utilize them with commitment.
    Senator Boxer. The leverage that we have here is the 
funding, and that is something that I feel we are going to have 
to look at--we just cannot turn our eye away from what is 
happening.
    I have run out of time. So if you do not mind, Doctor, I am 
going to turn it over to my colleague.
    Senator DeMint. Thank you, Madam Chairman.
    It is a complex opportunity that we have in the Middle 
East. I wish it were so simple as to remove a dictator, let 
people vote, and we would be moving ahead.
    I think it is convenient for us sometimes to try to 
separate the political issues with the economic issues and the 
religious issues, but as we know in the Middle East, much of 
the oppression of women is derived from the religious beliefs. 
And it appears that in some cases we are in danger of these new 
democracies just legitimizing a power grab by another 
oppressive regime which would establish an Islamic state which 
would, in effect, codify the rules against women. And so 
somehow in dealing with this we have to understand the root 
causes of the oppression and the lack of freedom and deal with 
the issues of religious freedom, of human rights, of political 
freedom, and economic freedom. And that is a complex array for 
us to try to support from the outside.
    I would just like to hear a comment maybe from both of you 
of how do we deal with that complexity. We want religious 
freedom. It is particularly important if we do not want a 
particular religion driving a status quo in those regions. How 
do we deal with that without interfering in their religious 
freedoms? And I will start with you, Dr. Wittes.
    Dr. Wittes. Well, thank you, Senator. I think that you have 
raised an absolutely critical point which is that having a 
consolidated democracy means more than having elections to 
choose your rulers. It means having democratic values that are 
inherent within your society that are embedded within your 
institutions. And I think in all our engagement with these new 
political actors that are emerging in these transition 
countries, we emphasize that democracy is not just about 
elections. It is about being committed to nonviolence, not 
using violence to achieve your political goals. It is about 
being committed to the rules of the game even if you lose, not 
just before the election is held. And it is also, very 
importantly, a commitment to equality for everybody under the 
law, including women, including minorities, people regardless 
of their faith, regardless of their ideology. And that 
commitment to pluralism and toleration is part and parcel of 
what makes a successful democracy. Those core democratic values 
are a part of every conversation that we are having with these 
new political actors.
    And I think what we see in these countries that are in 
transition now is that, of course, the political landscape is 
changing very quickly. A lot of new actors are coming forward 
and saying that they want to participate in the process. And 
the more diverse, the more competitive that political landscape 
can be, the more those actors are challenged to say what they 
really want to do, what their vision is for the future, and 
very importantly, how they are going to respond to the 
aspirations of the citizens who made these revolutions.
    And I think what I have really been struck by and I think 
the thing that gives me a lot of hope for the future is the 
determination, the pure determination of citizens, especially 
young people, in these societies to shape their own future. 
They are skeptical of ideologies. They are skeptical of 
slogans. They want to know the details, and they are going to 
be looking to their new leaders to deliver for them, to deliver 
opportunity, to deliver freedom, to deliver jobs and dignity. 
And so I think that even parties that are coming from a 
religious perspective have to be prepared in a truly 
competitive environment, which we are trying to cultivate with 
our programming and with our diplomacy. They are going to have 
to be prepared to answer those questions.
    Senator DeMint. Thank you.
    Ambassador Verveer.
    Ambassador Verveer. I think additionally, Senators, you 
pointed out in your opening remarks about the comments by Mr. 
Jalil in Libya when he was making this declaration about the 
new Libya. In the context, he talked about removing the 
restrictions on polygamy. And that statement created such an 
outcry both within Libya and outside of Libya from 
international leaders, as well as from the civil society that 
has been growing throughout this period of revolution. And 
within 24 hours, he was saying he had no intention to set up a 
theocracy. We do not know what steps are going to occur in the 
future. Actions speak louder than words.
    But I think it was a very small indication of what has to 
happen. Vigilance is critical. Speaking out against violations 
is critical. Upholding the democratic principles that were 
articulated by my colleague is critical. So there are so many 
things we have to be doing at the same time to ensure that the 
rights of women, the rights of minorities, the kinds of 
freedoms that we hold so dear that are universal freedoms and 
not unique to the West by any stretch of the imagination need 
to be protected every place. So I think that that is part of 
the way we have to act and go forward.
    Senator DeMint. Thank you.
    Senator Boxer. Senator Udall.
    Senator Udall. Thank you, Chairman Boxer and Ranking Member 
DeMint. Thank you very much.
    We have seen in the Arab Spring in the Arab countries women 
participating and coming out into the open places in pretty 
significant percentages. And I am wondering in seeing that--and 
I think all of us have observed it in different countries in 
the Arab world--which country do you think is the most 
promising in terms of looking at the expansion of women's 
rights. And then which country in the transition may prove to 
be the most challenging?
    Ambassador Verveer. Well, Senator, those are difficult 
judgments to make since we do not have that mirror that is 
going to show us where all of this is going to end up. But I 
would say that certainly Tunisia has a very long history of 
women's rights that have been chiseled into their constitution. 
Women there have participated significantly in the economy. It 
is one of the few countries that had a middle class. Women hold 
many of the faculty positions. They are large numbers of 
students in the universities. And they have enjoyed full rights 
unlike many of the women in the neighboring Arab countries.
    When I was there, I heard from so many women over and over, 
we do not want to be pushed back. We are where we are. They 
want to move forward, if anything, but they do not want to be 
pushed back.
    And I think the extraordinary outpouring, upward of 80 
percent of people standing in line for hours to vote, large 
numbers of women for sure--about a quarter of the seats have 
been won by women in the election. There was no majority won by 
any party. Although the An-Nahda party with the plurality will 
now put together a coalition government.
    But I think it is going to be really important to see how 
women, with the rights they have long held, with the economic 
and educational levels that many of them have, will be able to 
bring an outcome that is one what grows rights and does not 
push them back.
    In Libya, it is all at a much more nascent stage in my 
view. Although women have been instrumental from the earliest 
hours of the uprising in Libya, they have forged some of the 
most helpful humanitarian organizations. They are proving 
themselves to be vital members of civil society, but they are 
coming into a new world in many ways after having been locked 
out, not just the women but the men too. But it is always 
harder for women in these societies.
    I have great hope, having met so many of them, that they 
are more than capable, but I think that these next weeks and 
months and longer, for sure, will be telling about whether or 
not they are going to embrace the new future. But they are in 
many ways out of this box the last but with enormous potential. 
And what they are asking for very specifically is for the 
skills-building opportunities, the capacity-building to enable 
them not just to get to the table but to be effective at the 
table, to be good strategists to be able to make a difference.
    In Egypt, the situation is extremely complicated and 
worrisome. And I think the earliest signs of what happened in 
Egypt from women being cut out completely from the transitional 
apparatus that was set up, the ministry for women disbanded, 
other structures for women marginalized, the quota for women in 
the Parliament done away with--there have been any number of 
actions that have sort of raised that caution light.
    And women understand that they have to be fully engaged, 
and they are a remarkable people and with the right 
opportunities--and I think in the conversation we have been 
having constantly raising these issues and providing them with 
the kind of supports that we are across the board and 
particularly focusing also on the economic situation, which I 
think is so terribly important, will hopefully enable them to 
have the place that they should have. But they are different in 
many ways from the points at which they are starting.
    Also in Egypt, while the reforms for women have been 
limited, there have been significant reforms in divorce, in 
outlawing child marriage, FGM, in other kinds of benefits to 
women. But the previous first lady, Suzanne Mubarak, enabled 
some of that to happen even though it was women in the trenches 
for an awfully long time who worked to pioneer much of that 
work. Today, because of the action of the former First Lady in 
those reforms, there are those who are saying, well, they are 
tainted. We do not need them anymore. And it will be a severe 
loss to the kinds of progressive steps that have been made 
there if the baby is thrown out with the bath water. So there 
is lots of reason to be engaged, lots to watch, and lots to try 
to make a difference on.
    Senator Udall. Doctor, do you have any additional thoughts?
    Dr. Wittes. I do not think I can add anything to that.
    Senator Udall. OK. Thank you very much. Thank you both for 
your service.
    Senator Boxer. Thanks, Senator.
    Senator Shaheen, welcome. Do you have some questions for 
the panel?
    Senator Shaheen. Yes.
    Thank you very much, Senator Boxer and Senator Casey and 
Ranking Member DeMint for holding the hearing today on what is 
obviously a very important topic not only to the countries 
involved across the Middle East but also to the United States 
and to all of us who care about human rights and the rights of 
women around the world.
    Thank you very much, both of you, for what you are doing 
and for being here today.
    I am sorry. I know that Senator DeMint may have raised this 
to some extent, but I wonder if you could talk about the role 
of Islam as we are looking at the countries in the Middle East 
and how Islam affects the evolving debate around women's 
rights. Either one of you.
    Ambassador Verveer. Well, I will start and say that sharia 
is thrown around a lot and so much has to do with whose 
interpretation. And I think a lot about women in other 
predominantly Muslim societies who have, within the context of 
their values, been able to promote critical reforms.
    Morocco is a case in point which has made enormous strides 
on family law reform, perhaps the most difficult area in these 
societies to have reforms. And as they went through the process 
over many, many years and many were jailed and there were 
efforts made to prevent them from the course they were on, they 
realized that as many of them, the great majority, as good 
Muslims, they were not about to sacrifice their values to the 
voices of those who said you are being anti-Islamic because you 
are supporting personal status law reforms. They said no, and 
they steeped their reform effort in the very values of their 
religion. And when the family law reforms were promulgated by 
the king, it would say women have a right to custody of their 
children, and then there would be a Koranic verse legitimizing 
this reform in the context of values that the society held 
dear.
    There are others who want to take their most narrow 
interpretation of sharia, or Islamic law as it is called, and 
basically take away women's rights in the most horrific ways. 
And this is what I think we have to understand. As my colleague 
said earlier, in societies the rights of women, minorities have 
to be respected. There has got to be tolerance and pluralism. 
You cannot impose somebody's religious law and say it is for 
everybody. And Iran is a great model for that.
    But this is not to neglect the fact that the values that 
the religion represents and that so many women are a part of in 
a very significant way infuses the kinds of reforms they want 
to see for themselves. So I think we need a better 
understanding of some of what is going on.
    Senator Shaheen. And how much sharing is there among women 
leaders across the Middle East?
    Ambassador Verveer. You know, Senator, I think that is one 
of the most important things that we can do. When I was in 
Tunisia last, I brought together a group of women, part of the 
MEPI efforts over the years, from Yemen, from Jordan, from 
Egypt, from other places, Morocco, and it is amazing what 
happens in that kind of conversation because they are all from 
predominantly Muslim societies. They are all reform-minded. 
They all want to see a better life. And what one is able to do 
that another is striving to do, to learn what those lessons and 
best practices are, and the support mechanism that they 
represent for each other, the mentoring that they represent for 
each other I think is a very low-cost, significant investment 
that we need to keep making.
    Senator Shaheen. So some of the women who have been 
involved in the reforms in Morocco can talk about what worked 
there in a way that allows women in some of the other countries 
to build that foundation in Islamic law.
    Ambassador Verveer. Exactly. And you know, it was so 
interesting in this discussion that I referred to to hear women 
from other countries quiz the Moroccans on how they were able 
to do this and to take copious notes and certainly set out 
strategies and possibilities for themselves.
    Senator Shaheen. Did you want to add something?
    Dr. Wittes. Just very briefly. I think that Ambassador 
Verveer's point about the need to help them create solidarity 
and learn lessons across borders is absolutely crucial because 
they all want the same things. They all want equality, equality 
under the law, equal opportunity. And we have a relatively new 
program with Vital Voices that is designed to help cultivate 
and support exactly these cross-regional coalitions, bringing 
together women officials and women civil society leaders from 
across the region to build advocacy coalitions so that they can 
support one another in their work.
    Senator Shaheen. And obviously Vital Voices is important to 
this effort. What you are doing, Ambassador Verveer, through 
the State Department is important. Are there other examples 
that you can point to that have been effective? Are there 
organizations within the Middle East who are working on this 
kind of sharing and cooperative effort?
    Dr. Wittes. I think there are some wonderful organizations; 
some that are women-focused organizations, some that are human 
rights organizations but that are women-led or that have a 
heavy women focus that work across borders and that help to 
train their colleagues. One of the things that we have tried to 
do is help build coalitions even within countries. So, for 
example, in Lebanon where we funded a number of smaller women's 
NGO's across the country, we are trying to bring them together 
as a group, help them grow their organizations, and also help 
them work together as a team to achieve their goals in 
legislation.
    Senator Shaheen. Thank you. I am almost out of time, but I 
would like to raise one other issue which may have come up 
earlier, and that is what kind of buy-in you are seeing from 
men in various countries across the Middle East.
    Ambassador Verveer. Well, it is checkered. But I think we 
know that no good cause for women happens without the good men, 
and so working very closely with those who understand that, as 
I said at the outset in my remarks, these really are uniquely 
about women--these issues--but they really are about society. 
And women's issues in some ways always marginalizes them 
because we are not doing women a favor so much as we are 
understanding and appreciating that unless women are part of 
the political process, unless they are fully engaged in the 
economics of their country, the countries are not going to be 
better off. In fact, they are going to be worse off. And so the 
enlightened men who are a part of that understanding really 
have an extraordinarily important role to play in making all of 
that go forward.
    Senator Shaheen. Thank you. Thank you, Madam Chair.
    Senator Boxer. Thank you.
    We have been joined by our esteemed colleague, Senator 
Casey, who is, by the way, going to introduce the next panel, 
but before he does, he has a question or two for this panel.
    Senator Casey. Thank you, Madam Chair. I appreciate this 
opportunity.
    First of all, I want to apologize to the Ambassador and, 
Doctor, to you as well, because I was running late. So my 
question may be redundant and your responses may be redundant. 
But once in a while, it is not a bad idea to repeat ourselves 
around here.
    I am particularly grateful for your public service, and 
especially for your presence here today and your testimony.
    The one fundamental question I wanted to ask--and I will 
not use all of my time in the interest of moving forward 
because I know we are a bit over time--but what is the best 
thing we can do here in the United States? I know the 
administration is undertaking a number of initiatives to 
further advance the gains that have been made by women in 
various places in the aftermath of the Arab Spring. But, as for 
the administration, and also Congress, what do you hope that we 
will do in the next year or two both to solidify gains already 
made and to advance the cause further?
    Ambassador Verveer. Senator, we have talked about, as 
Senator Boxer put it, what are those levers that we can push to 
be able to have greater impact, realizing in the end it is the 
decisions of the people in the countries that will be 
dispositive. But certainly using our limited resources in ways 
that are focused in the most effective, important ways that we 
can make a difference--and for us, that is certainly in the 
realm of building capacity and political participation and in 
civil society enhancements in ways that--you know, we often 
forget.
    And I remember lessons from the past in many countries. In 
the former Soviet Union, for example, where women were well 
educated, but there was no experience in market economies. 
There was no experience in democracy. And they needed 
everything, and they came and they said train us in 
communications skills and how you strategize and how you get 
things done and how you are effective.
    And it is building that capacity, much of what we have done 
over the years, but now in a very concerted, targeted way that 
I think is the best use of our resources and elevating our 
voices within the international community and within our own 
country about why this is important and standing up for the 
rights of the people involved there is critical.
    And then at a time when we have our own issues here at home 
and we certainly have budgetary constraints--we are all going 
to have to do a lot more with less, which is easier to say than 
it is to live with. But to make our own people understand 
better just what is at stake. We have an extraordinary 
opportunity--we and the world--to take this historic moment and 
nudge it, push it, do whatever we can to have it move in the 
right direction of a flowering of democracy. It may not come 
around again. And the outcome, if it is a negative one, will 
have a great deal to say about instability in that region and 
our own security. So I think much is at stake and investments 
in prevention we always talk about, we never really do as well 
as we should. But I think this is one of those times where 
those kinds of investments could have the single biggest 
payoffs for the future.
    Senator Casey. Thank you.
    Doctor.
    Dr. Wittes. Thank you. I will just add one thing which is 
to refer back to something Ambassador Verveer said before you 
joined us, which is how important it is for the women activists 
and the aspiring women leaders that we meet with, when they 
have the opportunity to engage with colleagues from outside, 
and that when you are traveling in the region, when your staffs 
are traveling in the region, to help build that sense of 
solidarity by getting together with them, hearing from them 
about the work that they are trying to do and offering them 
your own experience as an elected official, as somebody in 
public service about what it takes to be effective. I think 
that breaking the sense of isolation, especially in places like 
Libya, that many of these women have suffered from over many 
years is perhaps one of the most important contributions we can 
make to giving them the motivation to keep going.
    Senator Casey. I would note parenthetically that we were in 
Kabul, Afghanistan, in August. We met a number of women who 
were Members of Parliament. And to a person, they had 
extraordinary stories, inspirational stories of overcoming all 
kinds of danger, threats, and violence to participate, to run, 
and to serve. So it was particularly inspiring.
    Thank you very much.
    Senator Boxer. Well, I want to thank our panel. I am going 
to take a point of personal privilege and ask one question, and 
then we are going to let you go. Then I am going to turn the 
gavel over to Subcommittee Chair Casey to run the next and last 
panel.
    As you know, the Senate has taken a number of steps to 
support women's rights in the Middle East and North Africa. In 
April 2011, the Senate unanimously approved a resolution 
honoring the courage of women involved in the Arab Spring and 
acknowledging that the empowerment of women is inextricably 
linked to the potential of nations to generate economic growth 
and sustainable democracy. I think that is a message we all 
agree with.
    Now, that resolution garnered the support of all 17 women 
Senators, and the women of the Senate followed this effort with 
a letter to the Supreme Council of the Armed Forces of Egypt, 
urging the inclusion of women in shaping a new government. 
Unfortunately, it looks like they might have tossed that one 
out. That is not good. Next time we will add our male friends 
to the letter and maybe they will give it a little more 
consideration.
    On July 29, the Senate unanimously approved a resolution 
that I authored with my colleague, Senator DeMint. And he and 
I--when we go on something together, it sends a pretty good 
message I think that we are covering all the bases. The 
resolution encouraged the full participation of women in the 
political process in Saudi Arabia.
    So I am going to turn to a little more controversial issue 
now for a moment. I don't think it should be controversial, but 
I want to get your answer on the record. I will address it to 
Ambassador Verveer.
    How would the United States ability to support women's 
participation in the Arab Spring and emerging reform 
governments in the region be enhanced if the United States 
ratified the Convention on the Elimination of All Forms of 
Discrimination Against Women? Do you think that would give us 
more standing?
    Ambassador Verveer. Well, you know, Senator, as I travel 
around the world, there is one question I get consistently, 
particularly from women who have been on the front lines of 
their own struggle in their countries, and that question is why 
has the United States not ratified the Convention for the 
Elimination of Discrimination Against Women and why do we stand 
with a few pariah countries like Somalia and Iran in not having 
done that. And it is not that we are lousy on these issues when 
it comes to women's rights. We have a phenomenal record to 
stand on. But we, frankly, have raised a lot of questions in 
key circles about why it is that we are not standing with 
everybody else.
    And I really do believe what the women told me in so many 
countries. I know one of the criticisms of CEDAW which I prefer 
to refer to as the women's rights amendment--human rights 
amendment--one of the criticisms is, well, a lot of countries 
that have ratified it, frankly, are not good at all on women's 
issues. But it is used as that lever. It is used as that prong 
to really hold governments accountable, and sometimes the women 
succeed and sometimes they fail. But it is something they hold 
onto because their governments have ratified these 
international agreements.
    And in the cases of Egypt and Libya and Tunisia, all have 
stated that they will abide by their international agreements. 
So I think we will see more and more an effort as some of these 
intensive discussions go forward in the political process and 
governments are organized where women will fall back on what 
these conventions represent for them. And it would be nice to 
stand with them on the basis of having ratified it. We will 
certainly stand with them in every other way, but I think it 
would give us that added standing, if you will.
    Senator Boxer. Well, let me say I know why some of my 
colleagues do not want to ratify this Convention. But I am 
going to do everything I can as chairman of this new 
subcommittee because we have never had a subcommittee that 
dealt with the status of women before. And I am so proud and I 
thank Senator Kerry and Senator Lugar for allowing me to take 
this on. I am going to do everything I can to figure out a way 
for us to get this done because I think we can address those 
concerns together. So that is what I am going to try to do.
    So at this time----
    [Applause.]
    Senator Boxer [continuing]. Thank you. You are not supposed 
to do that. But that was very nice. I did not expect that, and 
I have to say it is not allowed. So it is not allowed. 
[Laughter.]
    There was a comedian once who, when he got applauded in the 
middle of a show, he would go like this. And then he would go 
like this. [Laughter.]
    But I am not doing that. [Laughter.]
    I just want to say to both of you thank you for your 
eloquence and thank you for your work on the ground every 
single day. And, yes, there will be some areas you will see 
disagreement between Senators, but in most areas we are in 
total agreement that women are key to success of these nations. 
I was telling Senator DeMint about one of the things the very 
conservative historian, Bernard Lewis, said before the Arab 
Spring. When they asked him why do you think this portion of 
the world just has not developed economically, he said it very 
clearly. He said, you know, when you say that 50 percent of 
your people do not have opportunity, you will never catch up.
    So, you know, from the left to the right, we have common 
ground here, and the two of you are just key. And we are so 
grateful that you are out there. All of us are. So thank you 
very, very much. I know you have other things to do, and I am 
going to turn the gavel over to my friend and colleague to 
introduce the next panel.

        OPENING STATEMENT OF HON. ROBERT P. CASEY, JR.,
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Casey [presiding]. Well, thanks very much. First of 
all, let me thank both Senator Boxer and Senator DeMint for 
their leadership in having our first panel. We will move to our 
second panel. And I want to restate our gratitude to the 
distinguished witnesses before us now and those who preceded 
you on panel one. I missed a lot of panel one, so I have to try 
to make up for it right now. I am grateful for this 
opportunity.
    I do want to say how much we appreciate the time that our 
witnesses have spent to travel here and to prepare their 
testimony.
    We will hear in our second panel from the perspective of 
civil society on women in the Arab Spring.
    I am also thinking today about Secretary Clinton and the 
loss that she and her family just suffered with the death of 
her mother, a great example to women not just here in the 
United States but beyond our borders, and we are thinking of 
her today as we talk about these issues.
    We are here to discuss today the fate of women who are in 
many instances halfway around the world. I want to take this 
opportunity to reiterate that it is not only the Arab world 
that will benefit from including women in the political 
process. The United States will also benefit, as we have 
already heard our early witnesses talk about. Countries that 
encourage women's participation in civil society are generally 
healthier, more stable, and more prosperous. Through trade and 
partnership, a more prosperous Middle East will lead to more 
global and U.S. prosperity. A stable Middle East means a safer 
United States.
    While we are right to be encouraged by the historic 
political opportunities for women in the aftermath of the Arab 
Spring, there remain many significant obstacles to their full 
participation. While Tunisian and Egyptian women succeeded in 
helping to effect democratic change, the new governments in 
these countries must ensure that women are included in the 
political process and afforded protections under the new 
system.
    In other countries like Syria and Yemen, women are still 
fighting at great personal risk, and I would like to highlight 
just a few of the stories that these heroic Arab women who have 
faced, and continue to face, persecution for their 
outspokenness and their gender.
    In Syria, women activists have organized women-only 
protests in towns across the country. The Assad government is 
now targeting them with swift brutality. Women who participate 
are killed, beaten, and arrested. A 34-year-old attorney and 
journalist, Razan Zaitouneh, has documented the human rights 
situation since the beginning of the protests. In April, Razan 
was forced into hiding. Her husband was arrested, tortured, and 
kept in solitary confinement for nearly 4 months. Razan has 
been banned from travel outside of Syria since 2003. Similar 
stories are unfortunately too numerous to mention and outline 
here today, but we will all be examining these in the near term 
when we have a subcommittee hearing on Syria next week.
    There are stories of hardship and brutality but also 
stories of inspiration. Tawakul Karman, chairwoman of the Women 
Journalists Without Chains, mother of three, and now a Nobel 
Peace Prize laureate, led protests across Yemen and was 
instrumental in freeing jailed protesters. She promotes 
nonviolent methods, and she is reportedly known among Yemenis 
as ``the iron woman'' and ``the mother of the revolution.'' Her 
arrest last January moved hundreds of thousands of Yemenis to 
protest the Saleh regime itself and demand democratic rights. 
She is championing her causes worldwide and has met with U.N. 
Secretary General Ban Ki-moon, as well as our U.S. Secretary of 
State, Hillary Clinton.
    As the people of this region seek to grow their futures 
from the seeds of the Arab Spring, they will face many 
challenges. The question of who shall rule and how is centuries 
old and societies will strive to perfect the response for 
centuries yet to come. But what we have seen this year in the 
Middle East is a triumph of the democratic process over 
authoritarianism. It is a triumph of freedom over repression, 
and it is a triumph of justice over tyranny.
    Arab men and women fought for these freedoms. Arab men and 
women have the responsibility to build their governments and 
political systems. And both Arab men and Arab women should 
benefit from the changes that they helped bring about.
    Our witnesses today have impressive backgrounds in 
humanitarian work, women's issues, and challenges in the 
region. Manal Omar--and I am told that you flew from Tripoli to 
be here with us and that you are an advisor to the TNC. We 
appreciate that work and we appreciate you traveling to be with 
us in that capacity. She is the Director of Iraq, Iran, and 
North Africa Programs at the United States Institute of Peace. 
Manal has previously managed programs for Oxfam, responding to 
humanitarian crises in the Middle East, and she most recently 
published a book entitled ``Barefoot in Baghdad: A Story of 
Identity--My Own and What it Means to be a Woman in Chaos.'' 
Thank you very much for that work and that publication.
    Next we have the President of Women's Learning Partnership, 
Mahnaz Afkhami. She is also the executive director of the 
Foundation for Iranian Studies and was the first Minister of 
Women's Affairs in Iran. She has helped enact legislation that 
gave women equal rights to divorce and raised the minimum age 
of marriage for girls. She has coauthored a manual to develop 
women's leadership skills that has been adapted into 17 
languages. Thank you very much for that.
    Dr. Sandra Bunn-Livingstone is the President and CEO of 
Freedom Cubed, is an expert in international human rights law, 
and received her Ph.D. in international law from Cambridge 
University. She has worked in China, the U.K., and South Africa 
and most recently wrote a book on cultural influences on 
states' practice of international human rights law.
    I want to thank all three of our witnesses for your 
presence, for the testimony you will give, and for your work in 
all of these areas that are so critical to women not just in 
the Middle East but around the world. And I want to thank each 
of the panelists for taking the time to actually be with us 
here today to share your expertise on the role that women have 
played and will continue to play in the Arab Spring and the 
aftermath of the Arab Spring.
    We will start, unless Chairwoman Boxer or Senator DeMint 
has any comments to make, with Manal Omar. We will go right to 
left.

  STATEMENT OF MANAL OMAR, DIRECTOR OF IRAQ, IRAN, AND NORTH 
    AFRICA PROGRAMS, U.S. INSTITUTE OF PEACE, WASHINGTON, DC

    Ms. Omar. Thank you, Chairman Casey, Chairwoman Boxer, 
Senator DeMint, and Senator Shaheen. It is an honor to appear 
before you today to present my views on the role of women in 
the Arab Spring, and I will specifically be talking about 
Libya. The views I express today are my own and not necessarily 
those of the U.S. Institute of Peace which does not take policy 
positions.
    I currently direct USIP's programs on Iraq, Iran, and North
 Africa. My views are informed by my work through USIP which 
conducts training and field operations and provides tools to 
help prevent, manage, and end violent international conflicts. 
USIP has been working on the ground in Libya since early 
spring, particularly engaging with local civil society groups 
that have emerged and in an advisory role to the Libya 
stabilization team, which was formed by the National 
Transitional Council.
    The hearing, as many people have stated, is very timely and 
critically important for those concerned about ensuring that 
women have a role in their country's development. With the fall 
of Qaddafi, the different cities and towns across Libya are 
struggling to agree on a unified narrative for what happened 
with the revolution. There is one part of that narrative that 
all the different parties do agree on, which is that women were 
a crucial motivating factor in the midst of the struggle for 
freedom. Few would dispute women's role in the revolution. The 
question on women's minds now is whether that will be 
sustainable.
    Libyan women openly admitted that they had suppressed the 
alarm bells which began to ring when the NTC was formed, when 
out of 40 members, only one was appointed and one chairwoman of 
a committee. Women decided that the unity was more important 
than their own individual needs and that as soon as Libya was 
truly free, that they would then speak out. During my trip to 
Tripoli last week, women told me that that time had come.
    I wanted to make sure to note that Libyan women are not 
starting from a blank slate. They have had the legal right to 
vote since 1964 and also have a very long history of 
organizing. The first women's group in Libya dates back to 1955 
in Benghazi.
    As in most dictatorships in the region, citizens were not 
discriminated solely by gender but rather by loyalty to the 
party. So you did see a few women rise in the Libyan regime 
under Qaddafi. In fact, Qaddafi dedicated a lot of rhetoric in 
terms of support of women. Article 21 in the Human Rights 
Charter acknowledges discrimination against women, calling it a 
grave injustice. In 1997, the Charter on the Rights and Duties 
of Women in Libya provided several safeguards for women, 
including integration into national security, rights in 
marriage and divorce, social security rights, and financial 
independence. Qaddafi's regime went as far as to mandate equal 
pay for equal work for men and women.
    Libyan women see those rights as guaranteed and anticipate 
that this opportunity will present them a way forward. However, 
with the recent statement, as some people have discussed, by 
the NTC Chairman Mustafa Abdel Jalil, they were worried about 
what it would mean for women's liberation, especially with the 
mention of polygamy. Many women expressed that they have 
confidence in the President but were concerned about the 
pressures that led to that statement. There is a strong 
emphasis on the ground that women do not generally oppose 
Islamic law. In fact, many are arguing that Islamic law is the 
best framework for protecting their rights. However, their 
concern is with its turn toward a very patriarchal and 
monolithic interpretation of Islamic law, which has been the 
case in the region and which has led to less women's rights.
    I think it is important for us to understand why the 
women's participation is lacking, particularly on a leadership 
level.
    First, there is a desire to have representation from 
different parts of Libya, and particularly those which are more 
tribal, yet some of these tend to harbor biases against the 
political participation of women.
    Second, Libyan women themselves, even the qualified ones, 
are very hesitant to join the political process without a 
guaranteed safe and enabling environment. Although the Qaddafi 
regime was open to women, it was not necessarily safe for 
women, with sexual harassment being part and parcel of any 
promotion within the political system.
    One of the common arguments among Libyan decisionmakers is 
that there are no qualified women. This should be challenged. 
In Benghazi alone, which is more conservative than Tripoli, 40 
percent of the lawyers are women. Libyan women have higher 
access in secondary schools than their male counterparts and 
with higher rates of graduation.
    This is not to say that there are not challenges. There are 
many challenges, one of which is the absence of women from the 
labor market. Only 25 percent of females are part of the labor 
market, and with a large number of detainees and a large number 
of single female heads of household, this will be a problem for 
the stabilization of Libya in the future.
    Just a quick note on recommendations. The recommendations I 
would make is for us to really look at supporting the NTC in 
terms of a quota system that would guarantee women introducing 
a sunset clause because Libyan women are sensitive about it 
being there permanently. Also the application of Resolution 
1325 which outlines clear recommendations and building the 
support for cross-country learning particularly on the issue of 
nation-building and personal status laws. Such was mentioned, 
the case of Morocco. And finally, encouraging to create 
specialized funds to promote the expansion of employment 
opportunities for female-headed households within Libya.
    Thank you.
    [The prepared statement of Ms. Omar follows:]

                    Prepared Statement of Manal Omar

    Chairwoman Boxer, Chairman Casey, and members of the two 
subcommittees, it is an honor to appear before you today to present my 
views on the role of women in the Arab Spring, specifically in Libya. 
The views I express today are my own and not necessarily those of the 
U.S. Institute of Peace (USIP), which does not take policy positions.
    I currently direct USIP's programs on Iraq, Iran, and North Africa. 
My views are informed by my work at USIP which conducts training and 
field operations and provides tools to help prevent, manage, and end 
violent international conflicts. USIP has been working on the ground in 
Libya since early this spring, engaging with the burgeoning civil 
society sector and serving in an advisory role to the Libya 
Stabilization Team formed by the National Transitional Council (NTC). 
USIP is also training Libyan civil society leaders in conflict 
management skills to build local capacity to manage the transition out 
of conflict and the difficult task of national reconciliation. USIP 
knows that this is an essential activity following conflict.

                        WOMEN IN THE REVOLUTION

    This hearing is very timely and critically important for those 
concerned about ensuring that women have a role in their country's 
development. With the fall of Qaddafi, the different cities and towns 
across Libya are struggling to agree on a unified narrative of the 
revolution. There is one part of the narrative that everyone seems to 
agree on: women were a crucial motivating factor in the midst of the 
struggle for freedom. Whether it was the hundreds of Libyan women who 
traveled with the men to the frontlines to form makeshift kitchens or 
the women positioned inside Qaddafi strongholds who smuggled guns and 
information, women carved out a space for their participation. Women 
across Libya nursed the injured, while Libyan women in the diaspora 
returned to provide technical assistance to the newly formed NTC. 
Libyan women were able to gain access and they played both traditional 
and nontraditional roles that earned them a clear chapter in Libyan 
history.
    Women such as Najla Elmangoush, a lawyer who quickly volunteered to 
chair the Public Engagement Unit within the Executive Office to create 
a link with the newly emerging civil society organizations and the 
transitional council.
    Or Amina Mogherbi, who formed an organization to provide 
humanitarian aid to the internally displaced fleeing fighting from the 
northern and western provinces.
    In Tripoli, several women created a network to sew and distribute 
the new Libyan flag during the siege. Women like Amira Jalayde, from 
Sarman, just an hour outside Tripoli, worked to help link religious 
leaders with civil society and the NTC, recognizing that to build a 
prosperous and inclusive Libya, everyone will need to play their part.
    Few would dispute women's role in the revolution. The question on 
women's minds today is whether it is sustainable or not. Libyan women 
openly admitted they had suppressed the alarm bells that rang when the 
NTC was formed, when out of 40 members, only two were women. Women 
decided that unity was more important than their individual needs, and 
that as soon as Libya was truly free (i.e., after Qaddafi's capture) 
then they would speak out. During my trip to Tripoli last week, women 
told me that the time had come. They openly recognize that if they do 
not demand a place at the decision making table as the future of their 
country is being developed, then they will miss a crucial opportunity. 
One civil society activist in Tripoli gave voice to these women's fears 
when she explained that the current trend was to restrict women to the 
humanitarian space, and away from the political process. During a 
conflict resolution training USIP conducted which included women from 
Benghazi, Misrata, the Nufusa Mountains, Zawiyah, and many other areas 
across Libya, the Libyan women all had the same message: they would not 
let this happen.

                          A SEAT AT THE TABLE

    Libyan women are not starting from a blank slate. Libyan women have 
had the legal right to vote since 1964, a right some countries in the 
region have only recently gained. Women also have a long history of 
organizing; the first women's group dates back to 1955 in Benghazi. As 
in most dictatorships in the region, citizens were not discriminated 
against by gender, but rather, by loyalty to the party.
    In fact, under Qaddafi, a lot of rhetoric was in support of women. 
Article 21 in the Human Rights Charter acknowledges that discrimination 
against women is ``a gross and unwarranted injustice.'' In 1997, the 
Charter on the Rights and Duties of Women in Libya provided several 
safeguards for women, including integration into national security, 
rights in marriage, divorce, and custody, and nationality of children. 
It also safeguarded their right to work, social security, and financial 
independence. Qaddafi's regime mandated equal pay for equal work for 
men and women. In 2007, the Libyan Government in coordination with UNDP 
launched a project to address the legal ramifications of divorce and 
property rights, two crucial sectors that have great impact on economic 
empowerment of women.
    Libyan women see these rights as guaranteed, and anticipate that 
there will be opportunities under the NTC for advancement. NTC 
president Mustafa Abdel Jalil worried many women with his liberation 
speech in which he declared that Libya's future legal system would be 
based on Islamic law. Most women claim to trust in the President's 
leadership, but admit that his recent speech had them concerned. There 
is a strong emphasis that women do not generally oppose Islamic law, 
and in fact many feel Islamic law is the best framework for protecting 
their rights. Their concern, however, is with the trend toward imposing 
a monolithic interpretation of Islamic law. Despite the most recent 
speech, the NTC leadership, and particularly the Executive Committee, 
has verbally committed to supporting women on several occasions.
    There are several reasons for the lack of women's participation at 
the leadership level. First, there is desire to have area 
representation from different parts of Libya, and particularly tribal 
representation, some of which harbor biases against the political 
participation of women. Libyan women are hesitant to become part of the 
political process without a guaranteed safe and enabling environment. 
Although the Qaddafi regime was open to women, it was not necessarily 
safe for them. Several Libyan women I spoke with emphasized under 
Qaddafi's regime that sexual harassment was part and parcel of any 
promotion in the political system.
    One of the common arguments among Libyan decisionmakers is that 
there are no qualified women. I think it is important that the 
international community challenge this argument. Libyan women are 
active in the key respected professions--doctors, engineers, lawyers, 
and university professors. In Benghazi, which is considered to be a 
more conservative city by comparison to Tripoli, 40 percent of the 
lawyers are women. If qualifications are tied to education, Libyan 
women have the advantage once more. At the primary education level, 
women and men have equal access to education, and girls have higher 
attendance rates than their male counterparts in secondary school, 
according to the World Bank 2011 Data Book on Gender.
    That is not to say that Libyan women do not face certain 
challenges. Although women are highly educated, they are acutely 
missing from the labor market. Women across the country account for 
only 25 percent of the labor market. With the large number of detainees 
and missing persons due to the Qaddafi regime and the recent fighting, 
there are many female heads of households. Expansion of employment 
opportunities for women will be a key factor in the stabilization of 
the country. At the same time, the issue of sexual violence and the use 
of rape as a tool of war in Libya is one that cannot be emphasized 
enough. In addition to the trauma this has created for the victims and 
their family, it has added another layer to the already complex need 
for reconciliation across the country. Libyan women will struggle with 
these challenges for a long time to come.
    As far as USIP's response, USIP was the only non-Libyan participant 
invited to sit on the Libya Stabilization Team, which was formed by NTC 
Presidential decree. The first request was to share lessons learned 
from Iraq and Afghanistan. Naturally, protecting politically 
marginalized groups such as women and minorities was an essential part 
of that presentation. The Chair of Libya Stabilization Team responded 
positively to the recommendations on women, and demonstrated an 
openness to women's inclusivity. However, the reality is that this can 
only be accomplished if international allies continue to keep it on the 
agenda. The United States recognition of the Libyan NTC was with 
certain conditions. With the liberation
of Tripoli and the death of Gaddafi, now is the time to revisit those 
conditions
and ensure they are being addressed. Ensuring the role of women in post 
conflict reconstruction and the nation-building process is an essential 
component of those conditions.

                            RECOMMENDATIONS

  <bullet> The Libyan National Transitional Council should be 
        encouraged to implement a quota to bolster the representation 
        of women for current transitional government formation as well 
        as for future parliamentarian elections. Strong results have 
        been achieved in countries that have recently emerged from 
        conflict by using quotas to ensure the participation of women 
        in newly created political institutions. In fact, countries 
        recovering from conflict have managed to exceed stable nations 
        in terms of female representation, and are within the top 30 
        countries for the number of women serving in Parliament; Rwanda 
        is number one. Libyan women recognize the limitations of quotas 
        as well as the need for the most qualified individuals to fill 
        posts. However, with the imbalance of power, they are calling 
        for a quota as a temporary solution with a sunset clause to be 
        included.
  <bullet> The Libyan National Transitional Council should be 
        encouraged to abide by international standards, with a 
        particular focus on U.N. Resolution 1325. This can be a first 
        step for the United States to support Libyan women to develop a 
        national action plan for women. This can be done through 
        programs aimed at cross-country learning. This process has been 
        successful in other post-conflict environments where women 
        developed a National Action Plan on women's peace and security. 
        In 2009, Liberia, Burundi, and Sierra Leone convened in 
        Freetown to learn from one another about the process of 
        developing a National Action Plan. The process has also been 
        helpful in more developed and stable environments. Civil 
        society representatives from more than 15 European countries 
        came together in Brussels in September 2009 to exchange 
        experiences of the development of National Action Plans and to 
        share recommendations. USIP is leading the U.S. civil society 
        effort to develop a U.S. National Action Plan and is well 
        positioned to support the Libyan women.
  <bullet> Building on the need to develop programs focused on cross-
        country learning, U.S. funds dedicated to Libya should also 
        focus on supporting the exchange of lessons learned between 
        neighboring countries on personal status laws. Due to the 
        policies in the Gaddafi regime and the current fighting, there 
        are a large number of missing people. This leads to an 
        increased number of female heads of households, and the laws 
        governing divorce, marriage, inheritance, and property will be 
        part of the much needed distribution of resources for women.
  <bullet> The NTC should be encouraged to create specialized funds to 
        promote the expansion of employment opportunities for Libyan 
        female-headed households. This would not only serve to benefit 
        women, but will contribute to economic growth and stability for 
        the country as a whole.

                               CONCLUSION

    In closing, I want to reiterate the crucial role of Libyan women in 
the success of the revolution, and likewise, in securing a successful 
outcome for the country's future. While women have successfully paved a 
path for themselves during the revolution, trends in post conflict 
countries demonstrate a strong probability of them being left out of 
the formal reconstruction and nation-building process. The United 
States and the international community more broadly should support 
Libyan women during the transition as a way of investing in the welfare 
of Libya as a whole. Women in Libya have the educational capacity, but 
they need to be engaged in the economy, security, and other vital 
elements in the country's reconstruction.
    I want to once again express my appreciation for the opportunity to 
address the two subcommittees. Thank you for holding this hearing today 
on such an important topic.

    Senator Casey. Thank you very much.
    Ms. Afkhami.

   STATEMENT OF MAHNAZ AFKHAMI, PRESIDENT, WOMEN'S LEARNING 
                   PARTNERSHIP, BETHESDA, MD

    Ms. Afkhami. Thank you very much for this opportunity.
    My organization, Women's Learning Partnership, represents 
20 independent, autonomous organizations, mostly in Muslim-
majority countries. They have been working 11 years preparing 
curricula and conducting research, symposia, and workshops on 
how to change from autocratic cultures, which most of these 
societies share, to cultures of democracy and democratic 
activism.
    After the Arab Spring, these women have been engaged in 
national and regional brainstorming sessions. Last night I 
returned from Stockholm where many representatives of our 
partner organizations were meeting to discuss the use of 
technology for advocacy and social networking for democracy. 
Earlier, in Brussels, some of our partner organizations met 
with people from Eastern Europe, Latin America, and South 
Africa to share knowledge about developing specific instruments 
of democracy, such as constitutions and legislation.
    In recent months, many Muslim-majority countries have seen 
a historic and unprecedented movement toward democracy. Each of 
the countries in transition has offered both risk and 
opportunity for democratic voices and activists who are 
speaking out for women's equality and full participation in the 
reform process. Now more than ever, it is crucial that the 
United States help these groups gain the tools they need for 
political leadership and advocacy.
    To ensure that democracy movements result in truly 
equitable societies with equal rights for all, political 
authorities and those seeking elected office need to guarantee 
that all opportunities are at the disposal of all citizens. 
This means enshrining in laws and constitutions the principles 
of equal access to education, employment, and political 
participation, and unfettered access to communications 
technology and free expression. Most of all, it requires full 
support and solidarity from the United States in embracing 
models of democracy and equal opportunity.
    The grim truth is that women who are struggling to advance 
human rights and create secular, pluralistic, democratic 
societies face grave challenges rooted in tradition and 
history. Traditional social and cultural norms have relegated 
Middle Eastern women and girls to a private space, and they 
often lack the social, economic, and political power they need 
to overcome antagonistic groups and regressive policy. It is, 
therefore, of utmost importance for women's equality in these 
countries that the United States give its explicit support for 
women's full and equal participation in national reform 
processes.
    Egypt and Tunisia are prime examples of countries where 
progress toward women's equality may be undone without 
America's firm and increased commitment. Before the Arab 
Spring, as has been mentioned, Tunisia stood out in the region 
for its more equitable family laws, along with Morocco. In 
Tunisia, the October 23 elections resulted in a majority vote 
for An-Nahda, considered by some to be a moderate Islamic 
Party. While party leaders have said they will uphold women's 
rights achieved under Ben Ali, women's rights and democracy 
activists are seriously concerned that the party will act 
differently once in power.
    A similar challenge now faces women candidates in Egypt. 
Despite the rhetoric of democracy that drove the reform 
movement in Egypt, the large numbers of women who played key 
roles during the Tahrir Square protests and the longstanding 
networks of women's civil society organizations in the country, 
no women were included on the country's constitutional reform 
committee, not even a well-respected female judge on the 
constitutional court. This and the announcement of sharia law 
as the basis of legislation in Libya are stark reminders of the 
need to ensure that political revolution indeed, leads to a 
fundamental transformation toward democracy and equality for 
all members of society.
    To address this risk, we recommend that the United States 
focus on development of democratic practices and norms at both 
the social and political level through the following five 
actions.
    A clear commitment to the development of information and 
communications infrastructures that are widely available, 
secure, and free from censorship.
    Investment in training women, young people, and grassroots 
civil society members who are key actors in building cultures 
of democratic participation, to use new technology in support 
of this process.
    Funding and empowerment of institutions such as the 
National Endowment for Democracy that have long-term experience 
with supporting democratic transition.
    Engagement with local and regional media as key outlets to 
promote voices for democracy and equality at the national, 
community, and family levels.
    And support for international norms for women's equality at 
all levels of social interaction through the ratification of 
CEDAW, thus reinforcing the efforts of women's rights activists 
in the region. Our partners in the region have made clear to us 
that U.S. ratification of CEDAW would reinforce their own 
efforts to fully institutionalize and implement the treaty 
provisions for gender equality within their national 
legislation and constitutional reforms.
    This is a time of critical opportunity in the Middle East, 
but it is also a time of serious risk for women's rights. There 
is a very real possibility that women will not only be 
marginalized but also lose ground here unless we provide 
increased emphasis, training, and resources for women and civil 
society throughout the region. I urge you not to underestimate 
the power of your endorsement of those structures that are 
requisite to women's equality and the establishment of a deeply 
rooted culture of democracy both at the grassroots and through 
international frameworks. Through these paths, we can achieve 
true reform.
    Thank you.
    [The prepared statement of Ms. Afkhami follows:]

                  Prepared Statement of Mahnaz Afkhami

    Thank you for the opportunity to submit this testimony on the state 
of women's rights in the Middle East and North Africa during this 
critical time of transition.
    I am President and CEO of Women's Learning Partnership, a 
partnership of women's rights activists and NGOs from 20 countries,\1\ 
primarily in the Middle East and North Africa. We currently have 
longstanding relationships with organizations in Bahrain, Egypt, 
Jordan, Lebanon, and Morocco, who regularly convene with activists from 
across the region to discuss how to best advance women's rights and 
political participation. I would like to share with you some of the 
challenges, successes, and recommendations that have emerged from our 
partners' experiences during the past year.
---------------------------------------------------------------------------
    \1\ WLP partner list appended.
---------------------------------------------------------------------------
    In recent months, this region has seen historic and unprecedented 
movement toward democracy. In Tunisia and Egypt, peaceful pro-democracy 
activists have overthrown long-time dictators. In Morocco and Jordan, 
activists have instigated major changes toward democracy. In Bahrain, 
Libya, Syria, and Yemen, the protestors have been met with violent 
resistance. In all these charged situations, women have been active 
participants, and in some cases leaders and spokespersons in the 
movements for democracy and human rights.
    Each of these countries in transition has offered both risk and 
opportunity for democratic voices and activists who are speaking out 
for women's equality and full participation in the reform process. Now 
more than ever, it is crucial that the United States help these groups 
gain the tools they need for political leadership and advocacy.
    To ensure that democracy movements result in truly equitable 
societies with equal rights for all, political authorities and those 
seeking elected office need to guarantee that all opportunities are at 
the disposal of all citizens. This means enshrining in laws and 
constitutions the principles of equal access to education, employment, 
and political participation; and unfettered access to communications 
technology and free expression. Most of all it requires full support 
and solidarity from the United States in embracing models of democracy 
and equal opportunity. That can best happen through an unequivocal 
endorsement of international mechanisms that support those values.
    The grim truth is that women who are struggling to advance human 
rights and create secular, pluralistic, democratic societies, face 
grave challenges rooted in tradition and history. Traditional social 
and cultural norms have relegated Middle Eastern women and girls to a 
private space, and they often lack the social, economic, and political 
power they need to overcome antagonistic groups and regressive policy.
    It is also true that in recent decades, far greater numbers of 
women in the Middle East have gained access to higher education and are 
intellectually and emotionally well prepared to manage and to lead. But 
the Arab world still ranks last among regions in women's political 
participation \2\ and third-lowest in gender equality.\3\ In fact the 
gap is widening in that region between women's potential to serve as 
political actors and agents of change and their actual participation in 
decision-making processes.
---------------------------------------------------------------------------
    \2\ ``Women Making a Difference in Parliament,'' Information 
Document, Inter-Parliamentary Union, 2007, http://www.ipu.org/splz-e/
abudhabi07/information.pdf.
    \3\ http://hdr.undp.org/en/media/HDR_2010_EN_Tables_reprint.pdf at 
page 160.
---------------------------------------------------------------------------
    It is therefore of utmost importance for women's equality in these 
countries undergoing radical transformation that the United States give 
its explicit support for women's full and equal participation in 
national reform processes. The endorsement of international conventions 
that hold states accountable for enforcing women's human rights is 
central to this reform. The Convention on the Elimination of All Forms 
of Discrimination against Women (CEDAW), is a key such instrument.
    CEDAW has now been ratified by all the world's countries except for 
six, including the United States, Somalia, and Sudan. U.S. ratification 
would strengthen the efforts of activists for democracy and women's 
equality throughout the Middle East. Our partners in the region have 
made clear to us that U.S. ratification of CEDAW would reinforce their 
own efforts to fully institutionalize and implement the treaty 
provisions for gender equality within their national legislation and 
constitutional reforms.
    Egypt and Tunisia are prime examples of countries where progress 
toward women's equlity may be undone without America's firm and 
increased commitment. Before the Arab Spring, Tunisia stood out in the 
region for its more equitable family laws, along with Morocco, and 
Tunisia's historic election last week was heralded as a model of 
transparency. There was even a provision that women be equally 
represented on electoral lists. But in most instances their names were 
placed below those of men on those lists, so that true electoral parity 
likely will remain elusive. Additionally, the October 23 elections 
resulted in a majority vote for An-Nahda, considered by some to be a 
moderate Islamic party. While party leaders have said they will uphold 
women's rights achieved under Ben Ali, women's rights and democracy 
activists are seriously concerned that the party will act differently 
once in power.
    A similar challenge now faces women candidates in Egypt, where the 
need is critical for all policymakers to support women's equality, in 
order to minimize the association of past progress with the vestiges of 
the ousted autocratic regime. Despite the rhetoric of democracy that 
drove the reform movement in Egypt, the large numbers of women who 
played key roles during the Tahrir Square protests, and the 
longstanding networks of women's civil society organizations in the 
country, no women were included on the country's constitutional reform 
committee, not even a well-respected female judge on the constitutional 
court. Confronting this challenge, our partners and other women 
activists in Egypt have increased their efforts to train grassroots 
women, youth, and civil society organizations on political 
participation and ethical engagement in the electoral process.
    Beyond electoral representation, a legislative framework that 
mandates protection of minorities and religious freedoms is key not 
just for women's equality, but also to achieving democracy and security 
throughout the region. In Libya, for example, prospects for women's 
rights and democracy seem bleak at the moment, as the chair of the 
country's Transitional National Council recently announced that Islamic 
law, not secular law, will be the basis for Libya's new constitution, 
and indicated specifically that practices such as polygamy would be 
fully legalized. This raises immediate concern that women's rights will 
be further rolled back during Libya's reconstruction process. These 
dangers are stark reminders of the need to ensure that political 
revolution indeed leads to a fundamental transformation, not merely a 
cosmetic one, toward democracy and equality for all members of society.
    To address this risk, we recommend that the United States focus on 
long-term development of democratic practices and norms at both the 
social and political level through the following five actions:

  <bullet> A clear commitment through foreign assistance to the 
        development of information and communications infrastructures 
        that are widely available, secure, and free from censorship;
  <bullet> Investment in training women, young people and grassroots 
        civil society members who are key actors in building cultures 
        of democratic participation, to use new technology in support 
        of this process;
  <bullet> Funding and empowering institutions such as the National 
        Endowment for Democracy that have long-term experience with 
        supporting democratic transition;
  <bullet> Engagement with local and regional media as key outlets to 
        promote voices for democracy and equality at the national, 
        community, and family levels; and
  <bullet> Support for international norms for women's equality at all 
        levels of social interaction through the ratification of CEDAW, 
        the Convention on the Elimination of All Forms of 
        Discrimination Against Women, thus reinforcing the efforts of 
        women's rights activists in the region.

    This is a time of critical opportunity in the Middle East--but it 
is also a time of serious risk for women's rights. There is a very real 
possibility that women will not only be marginalized but also lose 
ground there, unless we provide increased emphasis, training, and 
resources for women and civil society throughout the region. I urge you 
not to underestimate the power of your endorsement of those structures 
that are requisite to women's equality and the establishment of a 
deeply rooted culture of democracy both at the grassroots and through 
international frameworks. Through these paths, we can achieve true 
reform.
    A factsheet on women's rights and the Arab Spring, created in 
collaboration with The Leadership Conference on Civil and Human Rights, 
is appended in support of this testimony.

    [Editor's note.--The factsheet can be found in the ``Additional 
Material Submitted for the Record'' section of this hearing.]

                       WLP PARTNER ORGANIZATIONS

Afghanistan--Afghan Institute of Learning (AIL)
Bahrain--Bahrain Women Association
Brazil--Cidadania, Estudo, Pesquisa, Informacao e Acao (CEPIA)
Egypt--Forum for Women in Development (FWID)
Indonesia--Women and Youth Development Institute for Indonesia (WYDII)
Indonesia--Koalisi Perempuan Indonesia/Indonesian Women Coalition (KPI)
Jordan--Sisterhood Is Global Institute-Jordan (SIGI/J)
Kazakhstan--Shymkent Women's Resource Center
Kyrgyzstan--Citizens Against Corruption
Lebanon--Collective for Research & Training on Development-Action 
        (CRTD-A)
Malaysia--All Women's Action Society (AWAM)
Mauritania--Association des Femmes Chefs de Famille (AFCF)
Morocco--Association Democratique des Femmes du Maroc (ADFM)
Nigeria--BAOBAB for Women's Human Rights
Pakistan--Aurat Foundation
Palestinian Territories--Women's Affairs Technical Committee (WATC)
Turkey--Kadin Emegini Degerlendirme Vakfi/ Foundation for the Support 
        of Women's Work (KEDV/FSSW)
Zimbabwe--Women's Self-Promotion Movement (WSPM)

    Senator Casey. Thank you very much.
    Dr. Bunn-Livingstone.

STATEMENT OF PROF. SANDRA BUNN-LIVINGSTONE, ESQ., PRESIDENT AND 
               CEO, FREEDOM CUBED, WASHINGTON, DC

    Dr. Bunn-Livingstone. Chairman Casey, Chairwoman Boxer, and 
Ranking Members DeMint and Risch, and distinguished members of 
the subcommittee, it is an honor to be invited to address you 
and to represent Freedom Cubed. Thank you for your efforts to 
advance women's rights.
    I ask that my full statement be entered into the record in 
the interest of time.
    Senator Casey. Without objection.
    Dr. Bunn-Livingstone. Thank you.
    Freedom Cubed is an international nonprofit committed to 
supporting human rights for each and every human being, 
including freedom of thought, conscience, and religion or 
belief. We work extensively in the Middle East and North 
Africa.
    Where human rights are fettered, women are often the most 
vulnerable victims. It is for this reason that so many women 
took part in the Arab Spring and were, in fact, central actors 
in the revolutions with Tunisia, Egypt, and Libya. Yet, given 
recent events, the focus of this testimony will be twofold. I 
will let Egyptian, Tunisian, and Libyan women's voices of 
concern speak and will then make recommendations.
    First, I would like to look at Egypt. Irini from Cairo 
states the subjection of women to open physical, sexual, and 
verbal harassment during their post-revolution march on 
International Women's Day was a telltale sign of where we are 
as a society. These are the same women who only weeks earlier 
stood side by side with men to demand the end of an oppressive 
regime. They were called names, shoved around, groped, and 
yelled at to go home and cook. What they were calling for were 
basic rights to engage in Egypt's political future.
    Muslim commentator, Khaled Montasser, premised the three 
targets for persecution in Egypt as women, the poor, the 
Christians. ``I believe both Muslim and Christian women will 
face a tough time with the looming fundamentalist Islamic 
majority in the upcoming parliamentary elections.''
    On October 9, 2011, peaceful protests in Cairo were met 
with military vehicles driving through crowds, leaving at least 
27 people dead and 300 injured, mostly from Egypt's Coptic 
Orthodox Christian community which represents 10 percent of the 
Egyptian population.
    Juxtaposed against these horrific events is a cause for 
hope, the recently signed Cannes Peace Accord and Plan of 
Action affirming the Egyptian Bill of Rights and Freedoms. 
Egyptian leaders from the House of the Family, Muslim and 
Christian, along with human rights activists renowned scholars 
and youth leaders of the social media revolution vowed their 
support at a Freedom Cubed-sponsored meeting in Cannes praised 
by Nobel Laureate Emeritus Archbishop Desmond Tutu as ``a 
fabulous step toward freedom.''
    Freedom Cubed's recommendations for Egypt are that the U.S. 
Government should be publicly supportive of equality for women 
and minorities and other human rights provisions of the 
Egyptian Bill of Rights and Freedoms, as well as the Cannes 
Peace Accord and Plan of Action; second, to encourage all 
efforts to hold free, fair, and transparent democratic 
elections; and third, to reaffirm article 18 in both the 
Universal Declaration of Human Rights and the International 
Covenant for Civil and Political Rights as fundamental for 
every human being in the world.
    Second, moving to Tunisia, women in Tunisia have had rights 
in political, social, and religious spheres prior to the 
revolution. Polygamy was outlawed. The government required 
parents to send girls to school. And today more than 50 percent 
of university students are women and 66 percent of judges and 
lawyers are women.
    October 23 elections were won by An-Nahda and longtime head 
Rached El Ghanouchi. He has pledged to support women's rights, 
but Dr. Khadija Moalla and other Tunisian women expressed 
concern that An-Nahda could decrease women's rights in Tunisia.
    Dr. Fatima of Medina tells her story. ``I am a Professor at 
Zaytouna University and I teach Islamic studies. I am an 
unveiled woman and I believe that it has to be a free choice of 
a woman to decide whether or not she wants to be veiled. In 
Tunis, it has always been the free choice of women. I believe 
that free will is crucial in the Muslim faith. Yet, to my 
shock, after the revolution, I came to campus to give my class 
lectures and was confronted by students and professors who 
demanded that I veil myself on campus. They banned me from 
teaching unless I wore the veil. Unfortunately, I now begin to 
wear the veil as I teach my classes so I can keep my job and 
continue to educate my students.''
    Recommendations for the committee concerning Tunisia are 
firstly to strongly support statements made by An-Nahda and its 
leader Ghanouchi which endorse women's rights, minority rights, 
and fundamental freedoms, then keep the new Tunisian Government 
accountable for such statements. Second, support a new 
constitution which reflects the cries of the Tunisian people 
for freedom. Third, condition U.S. economic support for Tunisia 
on women's rights, human rights, democracy, and the rule of 
law.
    Third, I turn toward Libya. Women, of course, played a big 
role in Libya's revolution. An advocate from Voices of Libyan 
Women lamented recently, ``I am quite disappointed in the 
liberation speech yesterday by Mustafa Abdel Jalil. He had so 
many more important issues to address. However, he focused on 
polygamy, and not only that but he thanked women for their role 
as mothers, sisters, and wives. Need we remind him of the 
countless women who got arrested, killed, and raped during this 
revolution, who fed and clothed our troops, smuggled weapons in 
their cars, hid soldiers in their homes, allowed and encouraged 
their sons, husbands, brothers, and even fathers to go and 
fight? Women make up more than half of the Libyan population. 
Would it not make sense then on liberation day to have a woman 
speak? We are completely shocked and unimpressed by the NTC and 
believe it is time for them to understand that simply because 
women did not have the same job as men in this revolution, it 
was not a lesser job. This was a Libyan revolution made by 
Libyan men and women.''
    Jalil has said Libya will be a moderate sharia country. 
Libya has been advocating freedom. So how that looks with the 
declaration of polygamy and sharia and what interpretation of 
sharia remains to be seen. The first indications give 
legitimate cause for concern to women and women's rights 
activists.
    Freedom Three gives the following recommendations for the 
committee on the situation for women's rights and freedom in 
Libya. One, seek clarification from the new leaders what will 
the legal system in Libya be based on. Second, determine 
whether other unpalatable forces are involved with this new 
leadership and encourage transparency, rule of law, and women's 
and human rights as the basis for the new constitution. Three, 
work to build a new infrastructure based on good governance, 
unity, equality, and nondiscrimination. And finally, to work 
multilaterally to encourage Tunisian adherence to international 
legal standards of human rights, women's rights, and 
fundamental freedoms.
    [The prepared statement of Dr. Bunn-Livingstone follows:]

       Prepared Statement of Dr. Sandra L. Bunn-Livingstone, Esq.

    Chairman Boxer, Ranking Member DeMint, and distinguished members of 
the subcommittee, it is an honour to be invited to address you and to 
represent Freedom\3\. I would like to thank you and your staff for all 
your efforts to advance the cause of human rights, democracy, and 
global women's issues.
    Freedom\3\ is an international nonprofit committed to supporting 
human rights for each and every human being across the globe. Its 
mission is to mobilize leaders in government, industry, law and 
education to promote freedom of thought, conscience, and religion or 
belief for each and every human being in the world. Its vision is to 
see that every human being in the world is able to exercise their 
fundamental right of freedom of thought, conscience, and religion or 
belief. Across the globe, where human rights are fettered, women and 
children are often the most vulnerable members of this disadvantaged 
subgroup of discrimination, hostility, and obloquy. And it is for this 
reason that so many women took part in the Arab Spring across the 
Middle East and North Africa, and were in fact, central actors in the 
revolutions of Tunisia, Egypt, and Libya. Yet, given the events of the 
recent fortnight, this subcommittee is to be commended for examining 
the issue, ``Women in the Arab Spring.''
    This focus of this testimony will be twofold: First, recent events 
in Egypt, Tunisia, and Libya provide us with reason to pause and ask 
whether the Arab Spring for women, and indeed vulnerable minorities 
will give rise to an Arab Summer, or if an Arab Winter seems far more 
likely? This portion of the testimony includes concerned voices from 
each country; and, second, what should the United States Government be 
doing to support true women's rights, human rights, and religious 
freedom in Egypt, Tunisia, and Libya?

                            I. RECENT EVENTS

A. Egypt
    On October 9, 2011, riots in Cairo led to the death of at least 27 
people and the injury of over 300, mostly from Egypt's Coptic Christian 
community. The conflict followed a peaceful march from the neighborhood 
of Shubra, with its high percentage of Coptic residents, to the Radio 
and TV Building in Maspero, which has become the location of choice for 
Coptic protests following the revolution. Early on in the coverage 
state media announced Coptic protestors had assaulted the army assigned 
to guard the Maspero building with stones, Molotov cocktails, and live 
ammunition, killing at least three. Yet after the violence, nearly all 
the dead were Copts, with many witnesses laying blame upon the military 
for the entire event. Since then, speculation has posited the presence 
of a third party, which may have set the two sides upon each other. The 
investigation is still ongoing, undertaken by the military 
prosecution.\1\ The events at Maspero represent a terrible devolution 
of relations between Coptic Christians and the army, the de facto 
government of Egypt. The common cries in Tahrir Square not so long ago 
of ``Muslims and Christians are all Egyptians,'' as well as calls for 
equality of men and women, freedom, opportunity, and solidarity became 
imperceptible on that Sunday 3 weeks ago.
---------------------------------------------------------------------------
    \1\ See Video testimony. Accounts filmed by eyewitnesses, 
television channels, and State TV. In all, the following report has 
collected 37 videos, beginning with initial march from Shubra, the 
onset of violence, the ensuing chaos, media coverage, and death.
---------------------------------------------------------------------------
  <http://click.icptrack.com/icp/
relay.php?r=13505088&msgid=402427&act=T1JM&c=196810&
destination=http%3A%2F%2Fwww.arabwestreport.info%2Fsites%2Fdefault%2Ffil
es%2Fpdfs%2F
paper34.pdf>
  <http://click.icptrack.com/icp/
relay.php?r=13505088&msgid=402427&act=T1JM&c=196810&
destination=http%3A%2F%2Farabwestreport.info%2Fyear-2011%2Fweek-
34%2F14-hulsman-
internal-and-external-pressures-make-it-hard-egypt-regain-stability>
    And yet, juxtaposed against these tensions, just 3 days later, 
Egyptian leaders from the House of the Family,\2\ Muslim and Christian, 
along with human rights activists, renowned scholars, and youth leaders 
of the Social Media revolution, gathered in Cannes, France, at the 
invitation of Freedom\3\, and signed the Cannes Peace Accord and Plan 
of Action (Appendix B) which vowed to support the Egyptian Bill of 
Rights and Freedoms \3\ (Appendix A) as a normative, guiding legal and 
policy structure for Egypt. This Bill of Rights, the first of its kind 
in the Arab world, provides 11 principles including, equality for women 
and men, prohibition of discrimination based on religion, gender, 
ethnicity, language or belief, freedom of religion, popular 
sovereignty, rule of law, separation of powers, independence of the 
judiciary, and human dignity. Nobel Laureate Emeritus Archbishop 
Desmond Tutu praised the Cannes Peace Accord, stating: ``My Dearest 
Egyptian Leaders, Muslim and Christian, young and old, women and men: I 
would like to congratulate you all on your outstanding commitment to 
peace, unity, and a bright future for Egypt. Always go forward, never 
look back, and build upon every positive step you take. The Bill of 
Rights and Freedoms which you have constructed and committed yourselves 
to is the first of its kind in the Arab world, and a fabulous step 
toward freedom. The Cannes Peace Accord and Plan of Action is a huge 
achievement, and I congratulate you, your host Freedom\3\, and its 
President, Professor Dr. Sandra Bunn-Livingstone for your joint 
commitment to the Egyptian people. God Bless you.''
---------------------------------------------------------------------------
    \2\ The House of the Family is a group formed after the Egyptian 
Revolution to represent all the people of Egypt. It includes such 
notable religious leaders as Grand Imam, Sheik Al-Azhar, Ahmed Mohamed 
el-Tayyeb, Grand Mufti, Sheik Ali Gomaa, Professor Dr. Hamdi Zakzouk, 
Secretary General House of the Family, Former Minister of Endowments, 
Pope Shenoudah III of Alexandria, President of the Protestant 
Evangelical Churches of Egypt, Pastor Professor Dr. Safwat El-Baiady, 
and Archbishop Antonious Naguib, Patriarch of the Coptic Catholic 
Church of Alexandria.
    \3\ The Egyptian Bill of Rights and Freedoms is a document that 
took 90 days and nearly 100 people to draft, negotiate, and agree upon 
(the committee represented every facet of Egyptian society, including 
Religious Leaders, civil society leaders, youth activists, community 
representatives, women, minorities, etc.). This Bill of Rights is the 
first of its kind in the Arab world, and includes principles of human 
dignity, human rights, women's rights, equality, civil and political 
rights, separation of powers, democracy and governmental transparency.
---------------------------------------------------------------------------
    Although attempts have been made by proponents of the Bill of 
Rights and Freedoms to get the Military Government to put this document 
in place ahead of parliamentary and presidential elections, in order to 
ensure the long-standing nature of these legal and policy structures, 
opposition from the Muslim Brotherhood and Salafist Groups have 
prevented this. Likewise, the international community has stayed 
largely silent on the matter.
    Irini, an Egyptian woman from Cairo, recently described her 
concerns with the future given recent events: \4\ ``I believe both 
Muslim and Christian women will face a tough time with the looming 
fundamentalist Islamic (Muslim Brotherhood and, to a lesser extent, 
Salafi) majority or near-majority in the upcoming parliamentary 
elections in Egypt. The promotion of the rights of women was a pet 
project of Mrs. Mubarak's. Now, everything that she promoted is being 
rejected and discredited--a classic throwing out of the baby with the 
bath water, so no one with a high level of influence will pick up the 
cause for a while.
---------------------------------------------------------------------------
    \4\ See Appendix C for testimonies submitted to Freedom\3\ from 
Egyptian women.
---------------------------------------------------------------------------
    ``The subjection of women to open physical, sexual and verbal 
harassment during their post-revolution march on International Women's 
Day was a telltale sign of where we are as a society. These are the 
same women who, only weeks earlier, stood side by side with men to 
demand the end of an oppressive regime. They were called names, shoved 
around, groped and yelled at to `go home and cook.' What they were 
calling for were basic rights to engage in Egypt's political future.\5\ 
The fact that some women in Tahrir Square were rounded up and subjected 
to virginity tests is frightening.\6\ This is criminal, and it happened 
with impunity.
---------------------------------------------------------------------------
    \5\ See http://blog.amnestyusa.org/iar/egyptian-revolution-
sidelining-women/ and http://voices.
washingtonpost.com/blog-post/2011/03/
international_womens_day_march.html.
    \6\ See http://www.amnesty.org/en/news-and-updates/egyptian-women-
protesters-forced-take-`virginity-tests'-2011-03-23.
---------------------------------------------------------------------------
    ``A recent article by Khaled Montasser, a prominent Muslim 
commentator in El Masry El Youm centered around the premise that the 
three targets for persecution in Egypt are: Women, the poor, the 
Christians. And a woman who is poor and Christian embodies that 
trifecta of doom.
    ``The most serious problem facing Egypt right now is lawlessness 
and the incapacity to bring criminal offenders to justice. This is why 
so many churches have been burned and Christians killed without 
retribution. The growing trend of declaring that someone is an infidel 
or not observant enough (moderate Muslims) puts Christians first in the 
line of fire. The fundamentalist rhetoric is unlike anything we've seen 
in the past, same with the hatred and intolerance. Combine that with an 
absence of due process and you have a mixture that is very dangerous to 
Christians, especially Christian women.'' \7\
---------------------------------------------------------------------------
    \7\ See also: http://www.catholicnewsagency.com/news/christian-
women-in-egypt-increasingly-con
verted-to-islam-by-force-witness-says/.
---------------------------------------------------------------------------
    The other testimonies appended to this one clearly show two facets 
of concern for women: lawlessness and uncontested violence against 
them, and discrimination, be it gender or religion-based. It is also 
obvious that extremist policies, sectarian strife, and lack of human 
rights protection put all individuals and minorities at risk in the 
``new Egypt.''
    Irini's account, coupled with the past difficulties with Egypt's 
tremendous need for religious freedom, as outlined in Article 18 of 
both the 1948 Universal Declaration of Human Rights and the 1966 
International Covenant on Civil and Political Rights is highlighted by 
this sectarian strife. Egypt has ratified the Covenant and is of course 
bound by the Universal Declaration in customary international law. As 
House of the Family Member, Grand Mufti Ali Gomaa states, ``The recent 
wave of sectarian violence . . . made my heart ache in a country where 
Christians and Muslims have lived together in peace for centuries. It 
is vital for the peace of the region and wider world that the place of 
all religious communities and their full participation in society 
should continue to be fully protected and assured . . . we feel duty-
bound to stress that any group must not claim to monopolize the 
interpretation of Islam as if they hold the unquestionable and divine 
truth, thereby precluding other interpretations and understanding of 
the role Islam is to play in the new Egypt.'' \8\
---------------------------------------------------------------------------
    \8\ ``What Role Will Islam Play in the New Egypt?'' Grand Mufti 
Sheik Ali Gomaa, http://www.
washingtonpost.com/blogs/guest-voices/post/what-role-will-islam-play-
in-the-new-egypt/2011/05/AFz3nrgG_blog.html.
---------------------------------------------------------------------------
B. Tunisia
    The Tunisian revolution resulted in widespread calls for political 
reform, including the demand for a new constitution, to be drafted by 
an elected Constituent Assembly. The previous Parliament was suspended 
in late January 2011 following the fall on January 14, 2011, of former 
President Zine El Abidine Ben Ali (a secularist regime) and a decision 
by the Supreme Council which broke up and outlawed the Democratic 
Constitutional Rally (RCD). The Elections of October 23, 2011, led to a 
big win for Islamist party, An-Nahda and long-time head, Rached El 
Ghanouchi. During the Ben Ali era Islamist opposition party Nahda was 
deemed a ``terrorist organization'' and outlawed in 1991. Nahda 
operated in exile in London until it was legalized by the post-Ben Ali 
government. The 218-seat Constituent Assembly will draft a new 
constitution and name a new interim government. Current provisions will 
most likely change in the new constitution.
    According to the Department of State, since January 14, the U.S. 
Government has contributed close to $40 million in assistance to help 
Tunisians prepare for elections; develop a pluralistic, competitive 
political culture; promote transparency and accountability; support 
indigenous transitional justice processes; support youth employment 
initiatives; and advance private-sector development.
    Despite broad opposition to the Ben Ali government, Tunisia under 
his regime had legal equality for women and outlawed polygamy (the only 
Arab government to do so). Tunisia had also had an enlightened and 
tolerant education system which was one of the best in the Arab world. 
Ghannouchi has pledged to support women's rights, even though in his 
past, he threatened to hang Raja bin Salama for her criticism of 
Islamic extremism and the subjugation of women. She had also called for 
Tunisian law to be based on the Universal Declaration. Likewise, 
Ghannouchi also stated that he wanted Lafif Lakhdar to be hanged with 
Salama for her Tunisian reform suggestions. Allegations have also been 
made of his condemnation of the United States, support for Hamas, and 
condemnation of Israel.
    An-Nahda, however, has said that it is not seeking to monopolize 
power nor to impose a fundamentalist agenda. And the largely 
outstanding nature of its free and fair elections has been lauded.\9\
---------------------------------------------------------------------------
    \9\ http://www.washingtonpost.com/opinions/tunisia-again-points-
the-way-for-arab-democracy/2011/10/24/gIQAYubeDM_story.html.
---------------------------------------------------------------------------
            Concerns for Women's Rights
    Tunisia became the first Arab state to formally abolish polygamy in 
1956. Although in current times, Tunisia is still one of the very few 
predominately Islamic nations that have legally banned polygamy, An-
Nahda has made statements concerning the legalization of polygamy. In 
comparison to many Arab countries, prior to the revolution, women in 
Tunisia are considered to have had major victories in obtaining rights 
in political, social, and religious spheres for themselves. Thus, it 
was expected that after the revolution, the rights of women would 
advance and not be hindered. Yet, An-Nahda has also influenced many 
young males and females to force unveiled women to be veiled.
    Dr. Khadija Moalla, a Tunisian woman and U.N. worker on HIV-Aids in 
the Middle East and North Africa, expressed her concern with the 
division and friction among Tunisian citizens. She has found that 
although the aspirations of starting the revolution are admirable, 
unity and solidarity among citizens does not exist any longer. In fact, 
the majority of constituencies are headed by self-interest and power. 
Such a deficit of unity is what brought the gulf-funded group, 
``Nahda'' a victory as the October 23, 2011, elections gave 41 percent 
of all votes to the Nahda group. As a result, the well-organized 
extremist group may very well contribute to the decrease of women's 
rights in Tunisia.
    Tunisian women have submitted testimonies (Appendix D) to 
Freedom\3\, which include the following account:

          Dr. Fatima of Medina, in the city center of Tunis, Tunisia in 
        Zaytouna Mosque University states: ``I am a Professor at 
        Zaytouna University which is the sharia (Islamic law) school of 
        the university of Tunis and I teach Islamic studies. I am an 
        unveiled woman and I believe that it has to be a free choice of 
        a woman to decide whether or not she wants to be veiled. It 
        should never be forced upon her. In Tunis, it has always been 
        the free choice of a woman and, in fact, the teaching on the 
        veil is left open to much interpretation and discussion. I 
        taught this to many of my students and I believed that free 
        will is crucial in the Muslim faith. Yet, to my shock, after 
        the revolution, I came to campus to give my class lectures and 
        was confronted by students and professors who demanded that I 
        veil myself on campus. I refused to submit to their requests. 
        As a result, they banned me from teaching unless I wore the 
        veil. It was a battle everyday as I walk on campus. 
        Unfortunately, due to the ridicule and discrimination I have 
        suffered on this issue, I have now begun to wear the veil as I 
        teach my classes so I can keep my job and continue to educate 
        my students.''

    Some may say this is a relatively mild step against women's rights 
in Tunisia, and that legalizing polygamy still gives individuals a 
choice of whether or not to be polygamous. But remember that choice is 
not a woman's choice, and certainly being forced to wear the veil when 
your own Muslim beliefs do not require the same, is a violation of both 
freedom of religion and freedom of expression. These small hints of 
what Tunisia could be like under Islamist rule are harbingers of the 
future Constitution, legal, and policy structure the world and women in 
Tunisia await.
C. Libya
    The death of Muammar Qaddafi, and the fall of his four-plus decade 
repressive regime led to the declaration of polygamy and Sharia law by 
the leader of the Transitional Council.
    As was shown in the media women played a big role in Libya's 
revolution. Out of this several women's advocacy groups have sprung up. 
This is how one such woman advocate lamented over recent events: ``I am 
quite disappointed in the Liberation speech yesterday by Mustafa Abdel 
Jalil. He had so many more important issues to address however he 
focused on polygamy, and not only that but thanked women for their role 
as `mothers, sisters, and wives'--need we remind him of the countless 
women who got arrested, killed, and raped during this revolution? The 
women who fed and clothed our troops? The women who smuggled weapons in 
their cars? The women who hid soldiers in their homes? The women who 
allowed and encouraged their sons, husbands, brothers and even fathers 
to go and fight? Women make up more than half of the Libyan 
population--would it not make sense then, on Liberation day, to have a 
woman speak? We are completely shocked and unimpressed by the NTC and 
believe it is time for them to understand that simply because women did 
not have the same job as men in this revolution, it was not a lesser 
job. This was a Libyan revolution--made by the Libyan men and women, 
and trying to define it as anything less is a joke.'' \10\
---------------------------------------------------------------------------
    \10\ The Voice of Libyan Women (VLW).
---------------------------------------------------------------------------
    Jalil has said Libya will be a moderate Sharia country. What that 
looks like remains to be seen. But under Gaddafi, fundamentalism was 
held down. Very few were mosque-going Muslims under Gaddafi. It was 
illegal to go to mosque too many times a week, and men could not have 
beards. That is why all the men had beards during the revolution. But 
Libya has also been advocating freedom, so how that looks with a 
declaration of polygamy and Sharia--and what interpretation of Sharia, 
remains to be seen. The first indications give legitimate cause for 
concern to women and women's rights' activists.

                          II. RECOMMENDATIONS

A. Egypt
    Egypt is the most populous country in the Arab world and the 
second-most populous on the African Continent. Its central importance 
therefore to U.S. Foreign Policy is obvious.
    Assistant Secretary of State Posner (Bureau of Human Rights, 
Democracy, and Labor) has stated, concerning the Arab Spring, ``The 
Obama administration believes that democratic transitions must be home 
grown. The challenge falls to the people and the leaders of the region 
to achieve the brighter future they desire--a future in which 
governments respond to the aspirations of their people and view it as 
their duty to protect human rights, fundamental freedoms and the 
dignity that all people desire and deserve. But the United States has a 
keen interest in their success, and we can play a key supporting role. 
We have done and will do this by acknowledging, supporting, and 
empowering the democratic and reformist voices from the region. And we 
will continue to do this by speaking honestly about the need to respect 
human rights and shun violence.''
    Now is the time for the U.S. Government, who gives some $1.3 
billion in foreign aid to Egypt, to closely assess human rights 
compliance, including the protection of women's rights, minorities, and 
all Egyptian citizens vis-a-vis the current military government, and to 
encourage adherence to rule of law, free and fair elections, and 
accountability for its actions. But there is another step our 
government can take:

          (1) In its ``key supporting role,'' the U.S. Government 
        should be supportive of human rights provisions of the Bill of 
        Rights and Freedoms drafted, negotiated, and agreed-upon by a 
        broad swathe of Egyptian leaders, representing an overwhelming 
        majority of Egyptian people;
          (2) Strongly support women's rights and the rights of the 
        minorities in Egypt, and speak out against violations of women 
        and minorities in the name of the majority, political party, or 
        nonstate actors;
          (3) Review and support the Cannes Peace Accord and Plan of 
        Action;
          (4) Do everything in its power to encourage both the current 
        military government, and future parliamentary and presidential 
        leaders to respect, uphold, enshrine, and protect the human 
        rights of women, minorities and the poor;
          (5) Encourage all efforts to hold free, fair, and transparent 
        democratic elections;
          (6) Support inclusion of Article 18 in both the UDHR and 
        ICCPR in Eygpt's Constitution, in order to provide religious 
        freedom for all Egyptians, and to halt sectarian violence based 
        on religion.

B. Tunisia
    Lack of political freedom characterized the Tunisian landscape 
under the former regime, and governmental insensitivity to economic 
equality led in part to the revolution which began in December 2010. 
Yet, at the same time, Tunisia has been a leader in the Arab world in 
promoting the legal and social status of women. A Personal Status Code 
was adopted shortly after independence in 1956, which, among other 
things, gave women full legal status (allowing them to run and own 
businesses, have bank accounts, and seek passports under their own 
authority). It also, for the first time in the Arab world, outlawed 
polygamy. The government required parents to send girls to school, and 
today more than 50 percent of university students are women and 66 
percent of judges and lawyers are women.
    Tunisia has also long been a voice for moderation and realism in 
the Middle East. Yet, post-revolution developments have raised 
questions about An-Nahda's commitment to women's rights, human rights, 
and nondiscrimination in the new Tunisia.
    Recommendations for this committee concerning Tunisia are:

    1. Strongly support statements made by An-Nahda and its leader, 
Ghannouchi which endorse, women's rights, minority rights, and 
fundamental freedoms--then keep the new Tunisian Government accountable 
for such statements.
    2. Support a new Constitution which reflects the cries of the 
Tunisian people who sacrificed so much for their future.
    3. Engage in Multilateral Efforts to assist Tunisia in its new 
nation-building capacity, focusing particularly on women and all 
economic infrastructures to increase potential for prosperity.
    4. Condition U.S. economic support for Tunisia on women's rights, 
human rights, democracy and the rule of law.

C. Libya
    The U.S. and NATO have invested a tremendous amount in working with 
the Libyan Transitional Council to liberate the country. Gadaffi is 
dead. The new leaders are in place. But the messages coming out of 
Libya give us cause for concern. Freedom\3\ gives the following 
recommendations for the committee on the situation for women's rights, 
human rights, and freedom in Libya:

    1. Seek clarification from the new leaders what the legal system in 
the new Libya will be based on.
    2. Determine whether other unpalatable forces are involved with 
this new leadership, and encourage transparency, rule of law, and 
women's/human rights as the basis for the new Constitution.
    3. Work to build new infrastructure based on good governance, 
unity, equality, and nondiscrimination.
    4. Help to assist with the establishment of security forces who are 
able to keep violence at a minimum and provide stability in what has 
been a very unstable environment.
    5. Work multilaterally to encourage adherence to international 
legal standards of human rights and fundamental freedoms.

                            III. CONCLUSION

    At this point at the juncture of Arab Spring and its aftermath, 
Egypt, Tunisia, and Libya, their people and the (in two cases 
transitional) governments need encouragement in their efforts toward 
human rights, including of course women's rights and protection of 
extremely vulnerable minorities.
    At the 12th Annual Center for Islam and Democracy Conference former 
U.S. Ambassador to Iraq, Afghanistan, and the United Nations. Zalmay 
Khalilzad stated, ``as much as would like to see multilateral responses 
to these things, we also have to recognize that sometimes effectiveness 
in carrying out the mission in a timely manner has to be the 
criterion.'' \11\ While multilateral support for human rights, 
including women's rights, and those of minorities and the poor in these 
three countries should be pursued and is in the best interests of those 
who should be protected, the U.S. Government also needs to act 
strongly, if needs be unilaterally, to support international human 
rights, including women's rights, minority rights, and religious 
freedom in Egypt, Tunisia, and Libya in its foreign aid decisions, 
diplomatic relations, and at the Executive level so that our own 
actions lend credence to those many brave men and women who risked 
everything for Spring--and whose expectations, like nature, look to 
Summer next--not Winter as the logical next step in their quest for 
equality, dignity, freedom, human rights, and the potential for 
holistic prosperity.
---------------------------------------------------------------------------
    \11\ https://www.csidonline.org/pdf/
CSID_12th_Annual_conference_report.pdf. Pg.19. CSID's Conference was 
entitled, ``Tunisia's and Egypt's Revolutions and Transitions to 
Democracy: What is the impact on the Arab World? What Lessons can we 
learn?'' Friday, April 15, 2011.

[Editor's note.--The appendices attachment to Dr. Bunn-Livingstone's 
prepared statement can be found in the ``Additional Material Submitted 
---------------------------------------------------------------------------
for the Record'' section of this printed hearing.]

    Senator Casey. Well, thank you very much.
    What I should have said earlier--and Doctor, you gave me a 
reminder--was that all three of your statements in full will be 
made a part of the record.
    I will start. We will do about 7 minutes and see where we 
get with our time, but we are grateful for your testimony. And 
each of you was over your time by only about a minute. That is 
a record for this place. You have already set some kind of a 
record.
    I wanted to ask a broader question, but I want to start 
with a more specific question. And that pertains to the impact 
or the interplay between a number of these countries that have 
a strong Islamic tradition and will have Islamic parties and 
leaders trying to move forward their agendas. At the same time, 
we have the beginnings of more democracy, more human rights, 
and obviously more rights for women. I want to get your sense 
of whether there will be different gradations or different 
approaches that Islamist parties will take in a particular 
country. Will it vary within a country, or will it vary country 
by country?
    We want to get a sense because sometimes in the United 
States when we look from a distance at another country, 
especially one undergoing seismic change, we do not have a 
strong sense of how it will work or a full understanding of how 
religion and culture play into this. I am guessing that there 
could be differences depending on which country you are in or 
maybe some Islamist parties will have a different approach than 
others. And I just want to get your sense, even if you can go 
country by country, or provide a broader analytic framework.
    We can start in any order. Ms. Omar, thank you.
    Ms. Omar. I will just start by taking you maybe a step back 
from the religion and culture argument and looking at the 
institution-building. And what is really missing in a lot of 
these countries is the ability to build institutions. Since we 
are looking at a very quick process, whether it is Egypt, 
whether it is Tunisia. Tunisia has already done their elections 
and the roadmap that has been defined by Libya is 8 months 
after liberation. And so what that does is it gives an added 
advantage to institutions that already exist. And this 
situation is primarily Islamic institutions, and that is giving 
an added advantage to that particular group. Whereas you have 
from the people a lot of pluralism, a lot of liberal views, a 
lot of desire to do political parties, but not enough time to 
actually catch up because the advantage will go to preexisting 
institutions.
    Senator Casey. Let me just interrupt there for one quick 
second. In which country or countries do you think those 
Islamic institutions are most fully developed? If you can rank 
them.
    Ms. Omar. Well, it would definitely be Egypt. I mean, Egypt 
is where you have the added advantage both within the Islamic 
institutions, particularly the Muslim Brotherhood, but a rising 
trend of Salifism within Egypt as well. And again, they have a 
much longer ability to and a wider network to get to the 
grassroots.
    I think that Libya would be second, but Libya is generally 
a religious country but sees the division between politics and 
religion, although again what has been happening with President 
Mustafa Abdel Jalil has worried a lot of Libyans within the 
country.
    And then I would say Tunisia is the third and maybe even a 
far third.
    However, again, going back to the dictatorship and the 
style of the dictatorship, because religious institutions were 
not allowed as part of the political process and actually 
targeted as the opposition voice, there is a lot of identity 
issues in terms of identifying themselves within the Islamic 
context as a way of protesting the previous regime's stand.
    I think in many countries and particularly Tunisia, there 
was an outward opposition toward women who wear the veil. Under 
Qaddafi people who attended the mosque were targeted. So, you 
know, there is this juxtaposition of being able to once more 
practice freely and then what does that mean in terms of 
translating it to a political process, and with such a fast 
process, that temptation of actually building other 
institutions is being skipped. And I think that that is a 
crucial element that needs to be explored when we are looking 
at the religious and cultural dynamics involved in these 
countries.
    Senator Casey. Ms. Afkhami.
    Ms. Afkhami. I would go so far as to say that all of the 
Muslim-majority societies have a tradition of strong networking 
and strong civic development. There is a strong appeal within 
their populations for Islamic organizations because of the fact 
that, for the most part, they are the ones who have been free 
to express themselves and to organize. The Islamic 
organizations have had resources. There is no tradition of 
philanthropy in these countries except for religious charity, 
and the religious charities have often offered services that 
the governments have not. Also, these organizations have 
strong, simple, appealing messages, and usually their messages 
are said to come directly from God. And so they are placed in a 
position of prominence right now.
    The more democratic forces, mostly among the young and the 
more educated and the more connected, have not had an 
opportunity to do civic organizing. There are no political 
parties in the way we know them. Unions are not strong. The 
necessary infrastructure for democracy is not there. And then, 
of course, the young who have been pushing for change have very 
high expectations. They are very urgent in their needs and 
demands, and there is just not enough time to really organize 
while building the infrastructure.
    So, this is a dangerous situation.
    Just briefly, I would look at the example of Iran. People 
do not remember, especially the populations in these countries 
who are 70 percent under the age of 30, that when Iran's 
revolution happened, it was all about democracy, all about 
freedom. Take Mr. Khomeini for instance. I have quotes from him 
before and after the revolution talking about freedom, talking 
about the fact that he did not want to take part in governing 
the country, talking about women being free to dress as they 
like and so forth. And at first he was very inclusive. 
Marxists, nationalists, all groups were included. And then 
gradually they were eliminated and a theocracy was put in 
place.
    I think it is important to remember that most of the 
organizations that self-identify as Islamists are the ones 
whose goals and whose aspirations do not necessarily match 
those of the progressives, the democrats, and the rest of the 
democratic world. I think caution is extremely important. Even 
the definition of ``moderate'' should be looked at carefully 
when we characterize political movements in these countries. 
And it is not just women who are threatened. It is other 
religions. There is the risk to the freedoms and liberties of 
the people in the country and the danger to the rest of the 
world if these countries turn into some facsimile of Iran.
    Senator Casey. Doctor, I will turn to Senator DeMint. I 
will allow your response during my next round.
    Senator DeMint. Thank you, Senator Casey.
    I thank all of you for being here. This has been very 
helpful. I will direct my first question to Dr. Bunn-
Livingstone.
    Just simply how important is religious freedom to 
protecting women's rights, solving sectarian violence, and 
providing unity in Egypt and other places in the Middle East?
    Dr. Bunn-Livingstone. Well, it is incredibly crucial in 
Egypt because you have a 10-percent Coptic Christian minority 
which has certainly been subjected to a lot of attacks recently 
which belie the purpose of the revolution in the first place.
    I think as the United States it is really crucial that we 
state religious freedom correctly, not as freedom to worship, 
but as the freedom that is outlined in the Universal 
Declaration of Human Rights in article 18. It is the freedom of 
thought, conscience, and religion or belief, the freedom to 
change your religion which, of course, does not coincide with 
apostasy and blasphemy laws in some versions of fundamental 
Islam, and the right to manifest your religion or belief in 
public or private alone, with a community of others in worship, 
practice, teaching, and observance. All of those aspects of 
religious freedom really need to be stated and restated by not 
just the United States but the EU, the international community, 
and others.
    And it is really crucial for women's rights when we look at 
kind of the trifecta that was described by Irini, the Egyptian 
woman in Cairo, where she said and even Muslims have said the 
real targets, if we get a radical Islamic government in Egypt, 
will be the poor, women, and Christians. So I think it is 
incredibly important.
    To answer the previous question in light of this question, 
what type of Islamic government we may have in these three 
countries, I think we have to look at what the Grand Mufti 
said. And the Grand Mufti of Egypt is one of the more moderate 
Islamic leaders, and he, of course, issues fatwas for all 
schools of Islam, both Sunni and Shia. He has said that he 
feels duty-bound to alert Islamist parties in Egypt they must 
not claim to monopolize Islam as if they hold the 
unquestionable and divine truth, thereby precluding other 
interpretations and understandings of the role Islam is to play 
in politics. This is really important. It is important for us 
to support those Islamic leaders in Egypt such as the Grand 
Mufti, the Sheik al-Azhar, Mohamed el-Tayeb, and other leaders 
in women's rights, human rights, religious freedom. We see this 
in the Bill of Rights and Freedoms that was drawn up by some of 
those members of the House of the Family and also by other 
people in civil society.
    In Tunisia, I think it is really crucial to look at what 
Ghanouchi did in the past. It may not be completely reflective 
of his position in Islamic law, but in the past, he threatened 
to hang Raja bin Salama for her criticism of Islamic extremism 
and the subjugation of women. She also called for Tunisian law 
to be based on the Universal Declaration of Human Rights. He 
also stated he wanted Lafif Lakhdar to be hanged with Salama 
for her Tunisian reform suggestions. So there have also been 
allegations made of his condemnation of the United States, 
support for Hamas, and condemnation of Israel. So I think the 
worry with Tunisia is not that it has had one of the most 
progressive women's rights regimes for quite some time. It is 
that the new regime may undo that very quickly, and I think we 
have to be quite supportive of the opposite.
    Senator DeMint. I will ask this really to all three of you. 
We want to help here in Congress, but just making speeches on 
the floor or passing resolutions may not be what is needed or 
creating some new Federal program that has unintended 
consequences. What would you suggest we do--any of you can 
volunteer here--if anything? Do we need to do anything?
    Ms. Afkhami. I would suggest one general principle that 
would be helpful. Keep in mind the young population which I 
mentioned, and refrain from considering the people of Muslim-
majority societies as somehow exceptional or different than 
people in other parts of the world. These young people are 
primarily concerned with economic well-being, with education, 
with jobs, with culture, not only their own but the culture of 
other countries. They want progress. And they are not really 
all that different from young people anywhere else. So there 
are some very vocal people in these countries who are well 
organized and who keep expounding religious principles as the 
base for politics, but the general population is sympathetic to 
all the values that are held here and elsewhere in the world. 
And so, if we address our programs to this audience, the values 
of the United States, and the infrastructure of this country 
and what it stands for, will resonate. The culture of the 
United States resonates. The issue is how to help these groups 
to organize and to learn the nitty-gritty of what it takes to 
create a democratic society.
    And I think that the best way to do this is to encourage 
their efforts to develop civic organizations using local and 
regional tools and strategies, instead of coming from the West 
and trying to directly build the capacities in those countries. 
The kind of thing, for instance, that has been done with our 
partners, that is peer to peer, south to south exchanges. 
Ambassador Verveer mentioned that that is part of what is being 
done. Expand that type of activity. Make accessible the 
experience of other countries that have undergone democratic 
transition so that there are diverse models and samples to 
follow. Some of the companies in this country such as Google, 
Facebook, and so forth can help a great deal to make 
communication faster, easier, and more extensive. For instance, 
making material in the appropriate language available, creating 
platforms and spaces for discussion, brainstorming, and for 
coming to some kind of an agreement or shared vision. These 
types of activities, if supported and funded and valued, as 
well as messages of support, are extraordinarily important for 
growing the civic society that democracy needs.
    An overemphasis on religion, I think, is something that 
will lead us to a uniformity of religious law, which excludes 
other religions automatically, and also will hamper the 
development of authentic civic organizations.
    Thank you.
    Senator DeMint. I think I am out of time. Well, Senator, 
just the point there. Maybe you and I can work on something in 
this regard. The idea of sharing information that other 
countries have been through is analogous to best practice type 
organizations in industry, and that is probably sorely lacking 
for a lot of these countries going through things for the first 
time. And perhaps that is something that we could help 
facilitate through some of the groups represented here today 
not only to collect the information, to keep it updated, but 
some of the social networks to make that available to those who 
are making the decisions. There are probably some things that 
we could do to be helpful in addition to passing resolutions 
and making speeches.
    Thank you, Senator.
    Senator Casey. Thank you, Senator DeMint.
    I know we only have limited time, but I want to ask a 
broader question. Can you assess what the Arab Spring means to 
women in a broad sense? I hate to narrow it down to an either/
or choice, but do you think what has happened and what is 
likely to happen in the near term offers substantial 
opportunities, or is it something that we should not have high 
expectations about? It may be difficult to answer, but I wanted 
to get your sense of that.
    Ms. Omar. I think I would start off in terms of what we are 
hearing on the ground often is a lot of excitement, 
particularly in Libya but also the time that I spent in Egypt. 
And most of my time in Egypt was outside Cairo in the 
countryside, particularly in Minea, which has 25 percent Coptic 
population. So there is an incredible amount of excitement. In 
countries like Libya, people are saying it cannot get worse. 
The regime that it was under was the absolute worst. Even the 
liberations for women was very rhetorical, but the actual day-
to-day living was unbearable.
    The reality is after conflict, a window of opportunity does 
open for women. It is not every day that you are negotiating a 
new social contract. It is not every day that you are putting a 
constitution together.
    I go back to the element of process. If the process is 
fast-forwarded, women, minorities, other groups who are 
marginalized politically will be missing from the 
decisionmaking table. When we recognized the Libyan NTC, we 
said it is with conditions. I think it is time for us to come 
back and say these are the conditions. Women are a part of it.
    I think an important element and what we need to do from 
learning from experiences in Iraq and Afghanistan is not ignore 
the issue of religion and not either overexceptionalize 
religion and particularly the role of Islamic law but not 
marginalize it as well. We need to put it at the center of the 
discussion, putting the rule of law above everything else. But 
the more we try to avoid that discussion, the more we feed the 
rhetoric on the ground which then empowers it. But if we focus 
on process, if we focus on rule of law, the women on the ground 
see that as their main protection, and that is what they are 
calling for over and over in all the countries I visited.
    Senator Casey. I guess the choice is substantial or more 
limited opportunity?
    Dr. Bunn-Livingstone. From the people that I know across 
the Arab world, Arab Spring for women means one thing in common 
across those three countries, which is overthrowing a dictator 
who is deeply corrupt and repression, and second, a new 
tomorrow, that things will not be the same, first in equality, 
in participation, and participation is a big part of what women 
had hoped for through the Arab Spring. And third, which is very 
crucial, is economic process and progress and prosperity.
    Ms. Afkhami. I would say it is sort of 50/50 right now 
whether we go toward realizing the hopes and aspirations of the 
people in these countries. It depends a whole lot on the 
interaction with the outside world. We sometimes underestimate 
the power of international public opinion, especially around 
what happens in the United States and the attitude of the 
United States. It may very well be that one cannot change 
events in these countries, but the perception of power and 
prestige of the United States is way over what may be in 
reality possible.
    In supporting democratic forces, of course, various 
opinions have to be included. Inclusiveness is one of the 
pillars of a successful democracy. But it is important for the 
United States not to be perceived as supporting groups no 
matter how they posit themselves, if their infrastructure or 
their basic beliefs are not in tune with democracy.
    I believe the support of the international community, both 
for development and economic programs and also for democratic 
ideals, makes a lot of difference in helping the people to 
build the kind of societies that they have worked for.
    Senator Casey. Well, thank you very much. Unless Senator 
DeMint has any more questions, I will ask for consent that the 
statements submitted by Human Rights First, the Leadership 
Conference on Civil and Human Rights, and Amnesty International 
be included in the record.
    We will, of course, keep the record open for 24 hours in 
case any of our Senate colleagues would like to submit 
additional questions in writing.
    We want to thank the panel. There is lots more to talk 
about, but you have given us some good guidance on how to 
assess the changes we have seen to date, and I am sure we will 
be calling upon you for further insight and further guidance 
and advice on how to proceed. But we are grateful for your 
testimony and for your presence here.
    We are adjourned.
    [Whereupon, at 4:25 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


                Prepared Statement of Human Rights First

    To the Honorable Barbara Boxer and Robert Casey: We welcome today's 
hearing on the Arab Spring and the role of--and impact on--women in 
these historic transitions. The Subcommittees, under the leadership of 
Senators Casey and Boxer, are to be commended, as is the U.S. 
Department of State, for their consistent focus on women's rights that 
has resulted in significant strides for women's groups and individuals 
throughout the world.
    Human Rights First has had a longstanding program in Egypt, and the 
opportunities available in the post-Mubarak era are ample.
    However, in Egypt, women are still being targeted by the security 
forces in ways similar to that of the old regime. Local activists from 
Nazra and elsewhere have reported to Human Rights First that the 
``virginity tests'' inflicted on women arrested in Tahrir Square in 
March were a far from exceptional incident of gender violence committed 
by the army.
    The 17 women subjected to the virginity tests by soldiers were 
threatened with prostitution charges if they were found not to be 
virgins, and such threats to women's privacy remain common.
    A pattern of targeting politically active women has emerged. Women 
at a political meeting in June to honor those killed in the January 
revolution were arrested and beaten by security forces. Female Muslim 
activists are threatened with rumours--that stories will be spread 
about them being romantically active with Christians.
    In May, a female journalist was attacked by the police. When she 
asked a passerby for help, the police told the bystanders that ``she's 
been committing adultery.''
    Local activists report being assaulted, stripped, sexually baited, 
threatened with charges of prostitution and virginity tests. There 
appears to be a policy of trying to intimidate women out of the 
political sphere through this gender violence.
    Human Rights First supports human rights defenders. In recent 
months, we have been approached by Egyptian women's groups about the 
challenges of organizing a movement with so many complexities. This 
week, a Human Rights First delegation is traveling to Egypt and 
Indonesia to coordinate a peer-to-peer exchange for women activists 
from many countries undergoing transitions and have experienced similar 
harassment by officials. Women in Bahrain, Indonesia and elsewhere can 
share valuable and practical advice to help overcome this intimidation.
    In Egypt there is a particularly large group of what are called 
``First Time Activists''--stereotypically those who joined the 
revolution protests this year--but who were not very active or vocal 
before. Like many activists who are newly engaged in Egypt, they need 
to be assured that the public space is safe for them to venture into 
without fear or harassment.
    In Bahrain there are First Time Activists as well, many of whom are 
women. These range from doctors and nurses to teachers, like Jaleela Al 
Salman, who, although a civilian, was put on trial in a military court 
and sentenced to three years in prison, where she was subjected to 
torture and harassment. She was initially released on bail pending her 
appeal on December 11, then re-arrested last week, and just released 
yesterday.
    HRF has also received testimony from activists about gender-based 
violations. For instance, female digital activists covering Bahrain are 
subject to organized online campaigns to discredit them for drinking 
alcohol or being promiscuous.
    U.S. policy prioritizes women's rights as human rights. We urge the 
witnesses at today's hearing to be specific about the achievements of 
women in the revolutions and ongoing protests, the threats they face 
for their courage, and the actions the U.S. government and NGO's can 
take to support this movement.
                                 ______
                                 

  Prepared Statement of The Leadership Conference on Civil and Human 
                  Rights on Behalf of 37 Organizations

    We are pleased to submit this statement on behalf of 37 
organizations, to support the many local efforts to advance women's 
equality as part of the democratization taking place in countries in 
the Middle East and North Africa. We thank Senator Barbara Boxer, 
chair, and Senator Jim DeMint, ranking member of the Senate Foreign 
Relations Subcommittee on International Operations and Organizations, 
Human Rights, Democracy and Global Women's Issues, and Senator Bob 
Casey, chair, and Senator Jim Risch, ranking member of the Subcommittee 
on Near Eastern and South Central Asian Affairs, for convening this 
hearing. We are pleased that this hearing will shine a spotlight on the 
importance of ensuring women's rights as these new democracies begin to 
take shape and urge that the committee consider the importance of the 
Convention on the Elimination of All Forms of Discrimination against 
Women (CEDAW) in supporting these efforts.
    We are members of a broad-based, diverse coalition of more than 180 
national organizations coordinated by The Leadership Conference on 
Civil and Human Rights, and are seeking U.S. ratification of CEDAW, the 
most comprehensive women's human rights treaty. Our organizations have 
come together to increase the understanding and visibility of CEDAW and 
to build a greater awareness among policymakers and the public about 
the need, importance and impact of ratification of CEDAW by the United 
States, now one of only six countries in the world that has not 
ratified this treaty.
    Since the start of the Arab Spring in Tunisia, some countries in 
the region, including Egypt and Libya, have toppled former dictators, 
while other sitting governments, such as Jordan and Morocco, have begun 
their own reform processes. In each of these countries, women have been 
important leaders and active participants in the ``revolutions'' and 
are determined to continue to press for equal participation in the 
democratization process and to enshrine women's equality in their new 
laws and constitutions.
    This September, Secretary of State Hillary Rodham Clinton, speaking 
at the United Nations just before the start of the General Assembly, 
noted:

          We are in an age of participation. Social networking and 
        connective technology has made that a fact. And every party in 
        any democracy should recognize the rights of women and make 
        room for women to play roles in the political process. As the 
        Arab Awakening enters a new chapter, we all have a stake in 
        ensuring that the potential of all citizens--men and women, 
        boys and girls--have a chance to be realized.

    It is no coincidence that this year the Nobel Peace Prize went to 
three women, including Tawakkul Kaman from Yemen, ``for their non-
violent struggle for the safety of women and for women's rights to full 
participation in peace building work.''
    It is now well-recognized that empowerment of women is central to 
building democratic, peaceful and prosperous societies. On numerous 
occasions, both President Barack Obama and Secretary Hillary Clinton 
have reiterated that a society can be neither democratic nor prosperous 
without the full participation of women, and that no nation can thrive 
when it fails to tap the potential of half its population. In 
September, when the World Bank released its ``World Development Report: 
Gender Equality and Development,'' Robert Zoellick, president of the 
World Bank, explained the need for the full participation of women in a 
Politico op-ed entitled ``Empowering Women Empowers Nations.'' He said, 
``Equality is not just the right thing to do. It's smart economics. How 
can an economy achieve full potential if it ignores sidelines or fails 
to invest in half its population?''
    The Senate has already gone on record expressing bipartisan support 
for women's rights and political participation as leaders in North 
Africa and the Middle East undertake constitutional reforms to shape 
new governments. In April 2011, the Senate unanimously approved a 
resolution emphasizing the critical importance of women's rights and 
political participation in these transitional periods. This resolution 
(S.Res.109), initiated by Senator Olympia Snowe, was co-sponsored by 
the 16 other women senators of both parties, among others. It was 
followed by a letter initiated by Senators Barbara Mikulski and Kay 
Bailey Hutchison, co-signed by all the women senators and others, to 
the Supreme Council of the Armed Forces of Egypt, urging the inclusion 
of women in shaping the government. On July 29, the Senate again 
unanimously approved a resolution (S.Res. 216) sponsored by Senator 
Boxer encouraging women's political participation in Saudi Arabia.
    We believe another important step that the United States should 
take to demonstrate its leadership and support for the efforts of women 
in the Middle East and North Africa is for the U.S. to ratify CEDAW and 
formally join with the rest of the world in working to advance equality 
and eliminate discrimination at home and abroad. CEDAW is a 
comprehensive international agreement that affirms principles of 
fundamental human rights and equality for women around the world. CEDAW 
offers countries a practical blueprint to achieve progress for women 
and girls by calling on each ratifying country to overcome barriers to 
discrimination. Around the world, CEDAW has been used to reduce sex 
trafficking and domestic abuse; provide access to education and 
vocational training; ensure the right to vote; ensure the ability to 
work and own a business without discrimination; ensure inheritance 
rights; improve maternal health; and end forced marriage and child 
marriage.
    Here in the United States, women enjoy opportunities and status not 
available to most of the world's women. However, few would dispute that 
more progress is needed, particularly to close the pay gap, reduce 
domestic violence, and stop trafficking. CEDAW would provide an 
opportunity for national dialogue on how to address persistent gaps in 
women's full equality. It would be a catalyst for the United States to 
engage in a systematic analysis of discrimination against women and 
develop strategies for solutions.
    CEDAW is the ``gold standard'' or international norm that countries 
around the world consult in shaping their laws and constitutions on 
equality and women's rights, and that women's advocates use around the 
globe to urge recognition and protection of these rights. One of 
CEDAW's primary goals is to ensure that women are able to exercise the 
full rights of citizenship and emerge as leaders in their own 
societies. For example, last year in a hearing convened by the Senate 
Judiciary Subcommittee on Human Rights and the Law, Wazhma Frogh, who 
works with the Afghan Women's Network, testified about how women's 
rights activists looked to CEDAW in their successful effort to include 
a gender equality clause in the new Afghan Constitution. Similarly, in 
Tunisia and other countries in the Middle East and North Africa, women 
are seeking to incorporate the comprehensive approach of CEDAW into 
their own new laws and constitutions. These women activists also report 
that some of their opponents question the seriousness of the United 
States' commitment to women's rights pointing to the fact that the U.S. 
has not ratified CEDAW.
    CEDAW has been ratified by Egypt, Tunisia, Libya and almost all of 
the other countries in the Middle East. When many of these countries 
ratified CEDAW, however, they attached reservations to the articles 
dealing with issues such as a woman's right to retain her own 
nationality and pass it on to her child, and the right to freely 
contract and own property. Women activists in the region, in 
collaboration with the Women's Learning Partnership, have undertaken a 
systematic regional campaign to promote the full implementation of 
CEDAW. As a result of this campaign, Morocco, for example, has lifted 
its reservations, and in its new constitution recognizes men and 
women's equal status as citizens and bans discrimination on the basis 
of sex. Jordan has lifted its reservations relating to women's right to 
travel freely and choose their place of residence. One of the first 
acts of the new Tunisian government this year was to remove its 
reservations to CEDAW and other human rights treaties. Discussions of 
CEDAW and efforts toward implementation, including changes in laws and 
policies, are taking place throughout the Middle East and North 
Africa.\1\
---------------------------------------------------------------------------
    \1\ Women's Learning Partnership, www.learningpartnership.org.
---------------------------------------------------------------------------
    As you know, CEDAW has been ratified by 187 countries. Only the 
United States and five other countries (Iran, Somalia, Sudan and two 
small Pacific Islands--Palau and Tonga) have not yet ratified this 
comprehensive women's human rights treaty. As we noted above, advancing 
women's human rights is also fundamental to America's national security 
and economic interests. Moreover, ratification of CEDAW would continue 
America's proud bipartisan tradition of promoting and protecting human 
rights.
    Women in the Middle East and North Africa, like women in many 
countries around the world, have found CEDAW to be a valuable tool for 
protecting and advancing women's rights. The question they always ask 
us is why the United States, a trailblazer in guaranteeing these 
rights, has failed to ratify CEDAW, this landmark treaty for women and 
girls.\2\
---------------------------------------------------------------------------
    \2\ Report by the International Center for Research of Women, 
``Recognizing Rights Promoting Progress: The Global Impact of CEDAW.''
---------------------------------------------------------------------------
    The United States is rightfully known as a global leader in 
standing up for women and girls. Yet our failure to ratify CEDAW 
enables opponents of women's rights in the Middle East and elsewhere to 
decide that U.S. arguments on behalf of women's rights need not be 
taken seriously. This September, Secretary Clinton, along with women 
heads of state and foreign ministers from countries around the world, 
endorsed a ``Joint Statement on Advancing Women's Political 
Participation,'' which reads in part:

          We reaffirm our commitment to the equal rights and inherent 
        dignity of women . . . We call upon all States to ratify and 
        fulfill their obligations under the UN Convention on the 
        Elimination of All Forms of Discrimination against Women 
        (CEDAW). . . .

    We applaud the bipartisan consensus in the Senate supporting 
women's participation in the transition to democracies in the region 
and the recognition of the centrality of advancing women's human rights 
as an essential ingredient of success. We believe the hearing today 
will deepen our understanding and appreciation of the need for U.S. 
policy and funding that strongly support the acceptance of and 
implementation of women's human rights in countries in the Middle East 
and North Africa.
    U.S. ratification of CEDAW would put the muscle of action behind 
words of America's global commitment to women's rights as human rights. 
Action now would come just when America needs such leverage and 
credibility to enhance its global leadership in standing up for women 
and girls who are pushing for equality in the Middle East. We urge the 
Senate Foreign Relations Committee to build on this consensus on 
women's human rights and take up U.S. ratification of CEDAW next year.

Submitted on behalf of: American Civil Liberties Union; Citizens for 
Global Solutions; National Women's Law Center; Advocates for Youth; 
American Association of University Women; American Jewish Committee; 
Center for Women Policy Studies; Center for Women's Global Leadership; 
Church Women United; Coalition of Labor Union Women; Communications 
Workers of America; Democratic Women's Forum; Demos; Department on the 
Status of Women, City and County of San Francisco; Feminist Majority; 
Hadassah, The Women's Zionist Organization of America, Inc.; Human 
Rights Advocates; Institute for Science and Human Values, Inc.; League 
of Women Voters of the United States; National Association of Social 
Workers; National Committee on the U.N. Convention on the Elimination 
of Discrimination against Women (CEDAW); National Council of Churches 
of Christ in the USA; National Council of Jewish Women; National 
Spiritual Assembly of the Baha'is of the United States; Refugees 
International; The Abortion Care Network; U.S. National Committee for 
UN Women; U.S. Women Connect; United Church of Christ; Women Graduates/
USA Inc.; Women's Environment and Development Organization; Women's 
Missionary Society of the African Methodist Episcopal Church; Women 
Enabled; WomenNC; Women's Business Development Center; and Zonta 
International.
                                 ______
                                 

            Prepared Statement of Amnesty International USA

    Amnesty International USA (``AIUSA'') welcomes this opportunity to 
address the Senate Foreign Relations Subcommittee on International 
Operations and Organizations, Human Rights, Democracy and Global 
Women's Issues and the Senate Foreign Relations Subcommittee on Near 
Eastern and South and Central Asian Affairs. This hearing comes at an 
important time for many countries in the Middle East and North Africa. 
We believe that the Senate has a crucial role to play in supporting the 
U.S. Administration in its efforts to realize fully its human rights 
commitments to women and gender equality in this region.
    Amnesty International's vision is for every person to enjoy all the 
rights enshrined in the Universal Declaration of Human Rights and other 
internationally recognized human rights standards. For more than 50 
years, Amnesty International has been helping to build a world where 
human rights are respected, protected, and fulfilled. This effort has 
involved partnerships with activists and civil society organizations 
around the world all committed to ensuring that governments live up to 
their human rights obligations.
    We commend recent actions led by the U.S. women Senators to support 
women's human rights in the Middle East and North Africa. These 
efforts--including Senate Resolution 109, sponsored by Senator Snowe, 
supporting women's rights and political participation in the Middle 
East and North Africa; Senate Resolution 216, sponsored by Senator 
Boxer, encouraging women's political participation in Saudi Arabia; and 
the letter cosponsored by Senators Mikulski and Hutchison, co-signed by 
all the women senators and others, to the Supreme Council of the Armed 
Forces of Egypt urging the inclusion of women in shaping the 
government--bolster the voices and honor the courage of women fighting 
for their human rights.
    The uprisings in the region offer an unprecedented opportunity to 
address gender inequity in the Middle East and North Africa. Amnesty 
International encourages the U.S. Senate to take action to protect, 
respect and fulfill the human rights of women both in the United States 
and around the world, including women in the Middle East and North 
Africa.

     WOMEN AT THE FOREFRONT OF CHANGE IN THE MIDDLE EAST UPRISINGS

    The historic events of the past year have seen thousands of women 
and men take to the streets in the Middle East and North Africa to 
claim their human rights, including their right to political 
participation. Many of the women in the region, who, as elsewhere, 
often shoulder a disproportionate share of the impact of armed 
conflict, tyranny, and stagnant economies, initiated, organized, and 
participated in the protests. Some of these women human rights 
defenders are long-time activists and the backbone of the movement for 
human rights and equality in their countries; others joined when the 
uprisings began.
    We must stand with these women. Women human rights defenders often 
face marginalization, prejudice, violence and threats to their safety 
and well-being as women and as individuals who challenge societal norms 
and gender stereotypes. Not only their calls for reform, but their 
faith, sexuality, motherhood, mothering, and family life are 
questioned, demeaned, and undermined in ways their male counterparts 
never experience.
    The uprisings in Tunisia, Egypt, and Libya are generating 
historical transformations. As these countries now work to rebuild 
their governments and societies, the international community must help 
ensure that these new societal frameworks include a commitment to 
gender equality. Women's human rights, including the right to political 
participation, must not be seen as separate issue or an ``add on'' but 
rather as an integral and indivisible part of creating a new, more just 
society. It is the responsibly of these new governments to guarantee 
that women's human rights are protected, respected and fulfilled at all 
levels of society and government.
    Amnesty International has documented the ongoing human rights 
situation in the Middle East and North Africa in the years leading up 
to, during, and since the uprisings. We remain concerned that, despite 
the role of women in the protests, women are being left out of 
transition arrangements and plans for new governance. In Egypt, for 
example, women stood shoulder to shoulder with men to topple a regime 
notorious for its human rights abuses yet, now that those leaders have 
been forced to step down, women are too often finding their calls for 
an equal seat at the table rejected.
    Although protests are occurring throughout the region, Amnesty 
International highlights Tunisia, Egypt, Libya and Bahrain in our 
testimony today to shine a spotlight on the hearing focus countries and 
provide additional information regarding a country where crackdowns 
against protestors continue.

                                TUNISIA

    On December 17, 2010, Tunisians revolted against President Zine El 
Abidine Ben Ali and his 23 year rule. Less than a month later, Ben Ali 
stepped down and Tunisia's interim government took over. Scheduled 
parliamentary elections were held on October 23, 2011. This election 
allowed voters, both women and men, to choose their representatives for 
a Constituent Assembly that will create a new constitution and 
political framework for Tunisia.
    The An-Nanda party, an Islamist, pro-democracy party, won 40% of 
the parliamentary votes, granting it 90 seats in the new assembly. The 
leader of the party, Rachid Ghannouchi, has pledged not to reverse the 
rights and freedoms Tunisian women have gained in the past. Tunisia's 
first ``fair and free'' elections saw an unprecedented registered voter 
turnout of over 90%, with many women voting for the first time.
    Tunisia also recently lifted several key reservations to the 
Convention on the Elimination of All Forms of Discrimination Against 
Women (``CEDAW''). This critical human rights treaty is the most 
comprehensive treaty addressing the rights of women. Tunisia's actions 
will help set the stage for women to use CEDAW to claim their rights, 
such as the right to pass their nationality onto their children, the 
ability obtain equal rights and responsibilities in matters relating to 
marriage and divorce, the right to make decisions regarding children 
and guardianship, and the right to own property.
    Although Amnesty International notes these positive steps, much 
still needs to be done to fulfill women's human rights and meaningful 
political participation. Amnesty International urges the U.S. 
Government to work with Tunisia's new Constitutional Assembly to ensure 
gender equality in the new Tunisian legal framework and constitution, 
including women's full participation in the creation of that framework.

                                 EGYPT

    Egyptian women played an integral role in the ``January 25 
Revolution'' and in the toppling of President Mubarak's oppressive 
regime. After days of angry protests, President Mubarak resigned on 
February 11, 2011, ending 30 years of autocracy. The military of Egypt, 
operating as the ``Supreme Council of the Armed Forces'' (``Council''), 
is in control but has been slow to deliver on its promises of change. 
It is still operating under emergency law, which was often used by 
Mubarak to silence his protestors, and using military courts, which 
have a history of severe punishment, to try citizens of the country. 
Freedoms of expression, association and assembly have been promised, 
but criticism of the authorities has been suppressed, activists 
targeted, NGOs threatened with criminal investigation, and 
demonstrators arbitrarily arrested and forcibly dispersed. New trade 
unions have been permitted, but striking banned. Millions of people in 
slums are still waiting for their voices to be heard.
    The expectations of gender equality created by the uprising have 
yet to be realized. Greater political participation has been promised, 
but women have been marginalized. No women were allowed to be a part of 
the constitutional reform committee and, with only one female cabinet 
member, they have received little representation in the new government. 
To successfully complete Egypt's political transformation and build a 
free society, women must be equal partners in the establishment of a 
new, stable government with their issues and ideas given equal 
consideration.
    Amnesty International is aware of severe violations of women's 
human rights post-uprising that have contributed to their exclusion 
from full political participation. For example, on March 9, 2011, 18 
women protestors in Tahrir Square were detained, beaten, given electric 
shocks, strip searched, forced to submit to ``virginity tests,'' and 
threatened with prostitution charges.\1\ Virginity tests are a 
violation of women's human rights and are considered torture when 
forced or coerced. Amnesty International called for an immediate 
repudiation of these and any future tests. Although Major General Abdel 
Fattah al-Sisi of the Supreme Council of the Armed Forces pledged to 
halt this practice after a meeting with Amnesty International Secretary 
General Salil Shetty, Amnesty International fears that discriminatory 
and patriarchal attitudes towards women in Egypt are standing in the 
way of women's full participation in the reform process.
---------------------------------------------------------------------------
    \1\ http://www. amnesty.org/en/news-and-updates/egyptian-women-
protesters-forced-take%E2%
80%98virginity-tests%E2%80%99-2011-03-23.
---------------------------------------------------------------------------
    The military regime in Egypt has set the date for parliamentary 
elections on November 28, 2011. As of yet, no date has been set for 
presidential elections even though the interim military regime promised 
to transfer power to civilian rule within six months of President 
Mubarak's resignation. The upcoming parliamentary elections must set 
the stage for elections in which women are fully able to participate to 
be a part of Egypt's political future.
    To ensure that women's human rights, including the right of 
political participation, are fulfilled in Egypt, Amnesty International 
recommends that the U.S. Government work with Egypt to end 
discrimination and to accord equal legal status to men and women. 
Currently, the World Economic Forum's Gender Gap report ranks Egypt 125 
of 134 at the lowest end of gender equality. Legal provisions 
discriminating against individuals on the basis of race, color, 
religion, ethnicity, birth, sex, sexual orientation, gender identity, 
political or other opinion, national or social origin, property, or 
other status, must be brought in line with international law and 
standards and therefore abolished.
    Further, women must be full partners in the process of political 
and human rights reform. Women and men must be accorded equal rights in 
law to marriage, divorce, child custody and inheritance. Women must 
have legal protection from domestic violence, including marital rape 
and sexual harassment. Penal Code articles 260-263 must be amended to 
allow abortion for women and girl survivors of rape and incest, or when 
a pregnancy poses a grave risk to health. Law No. 126 of 2008 must be 
amended to prohibit female genital mutilation in all cases.

                                 LIBYA

    In the spirit of recent uprisings in Egypt and Tunisia, Libyans 
called for a ``Day of Rage'' on February 17, 2011, against Colonel 
Gaddafi's regime. These demonstrations quickly evolved into armed 
conflict between pro-Gaddafi forces and the opposition, working under 
the National Transitional Council (NTC). Now that the NTC has succeeded 
in ousting Gaddafi and his supporters, they have appointed Abdel-Rahim 
al-Keeb as the new interim Prime Minister of Libya. Al-Keeb is expected 
to appoint a cabinet and pave the way to general elections.
    Throughout the Gaddafi regime and the conflict that resulted in his 
ouster, women have come forward with claims of rape and other abuses. 
One such case is that of Libyan law student, Iman al-Obeidi, who 
announced to international journalists that she had been raped by 
Libyan soldiers loyal to Gaddafi. Iman al-Obeidi was dragged out of a 
Tripoli hotel on March 26, 2011, by security forces and detained after 
this public accusation.
    Amnesty International urges the U.S. Government to work with the 
NTC to ensure that women play a central role in Libya's new government, 
and that women's human rights are respected, including by fully 
investigating all claims of sexual violence against women during the 
armed conflict and ensuring full accountability.

                                BAHRAIN

    Political protests in the Middle East and North Africa have not 
been limited to Egypt, Libya and Tunisia. The call for freedom has 
spread throughout the region. In Bahrain, political protests, which 
started in February, have included the voices of many Bahraini women. 
Thousands of Bahraini women participated in demonstrations in February 
and March. Demonstrations held in more recent weeks have also included 
many women.
    As a result, Bahraini women have also experienced a significant 
share of human rights violations by Bahrain's security forces and 
government. Of the 20 health professionals given prison sentences by 
military courts following the treatment of injured protesters, six are 
women.
    Female detainees have also alleged torture and ill-treatment. Rula 
al-Saffar, the head of the Bahrain Nursing Society, was sentenced to 15 
years imprisonment, and Ayat al-Qormozi, a student, was sentenced to 
one year in prison and released on bail. Dozens of women have been 
dismissed or suspended from their jobs because of their role in the 
protests.
    Several examples of Bahraini women who have been involved in 
protests against the Bahraini government and have been subjected to 
human rights violations are detailed below:

  <bullet> Former Vice President of the Bahraini Teachers Association, 
        Jalila al-Salman, 46-year-old mother of three: Ms. Al-Salman 
        was arrested by Bahraini government security officers in March 
        of 2011 in connection with the BTA's calls for strikes amid 
        political protests. She was reportedly beaten in the early days 
        of her confinement. Following a deeply flawed military court 
        trial, Ms. Al-Salman was sentenced to three years in prison. 
        She was later released, pending a civilian court appeal on 
        December 11. Following her release, Ms. Al-Salman continued to 
        speak out about her own experiences in detention and the plight 
        of others. On October 11, she was taken from her home in 
        Bahrain by a force of more than 30 security officials, 
        including riot police, who arrived in seven vehicles. The 
        officials reportedly said that they were enforcing a court 
        order for her arrest though they refused to produce a formal 
        arrest warrant. Ms. Al-Salman was again released on November 1, 
        but at this moment of writing Amnesty International cannot 
        confirm her legal status. A review of statements issued by the 
        BTA during the spring in relation to strikes and other protest 
        activity revealed only appeals for peaceful activity, and no 
        mention of, or advocacy for, violence. Amnesty International 
        believes that Ms. Al-Salman may be a prisoner of conscience, 
        arrested merely because of her past leadership position in the 
        BTA and for exercising her rights to freedom of expression, 
        association and assembly.
  <bullet> Bahraini poet and university student, Ayat al-Qarmezi, age 
        20: Ms. Al-Qarmezi was arrested in March for reading a poem out 
        loud at a pro-reform rally in the Bahraini capital of Manama. 
        She alleges that she was beaten and tortured with electric 
        shocks while she was imprisoned and held in solitary 
        confinement for the first 15 days of her detention. She was 
        charged with taking part in illegal protests, disrupting public 
        security and publicly inciting hatred toward the regime. 
        Following a military court trial that did not meet basic 
        standards of fairness, she was sentenced to one year in prison. 
        Ms. Al-Qarmezi was subsequently released on bail on July 13, 
        and her appeal is on November 21. Amnesty International 
        considered Ms. Al-Qarmezi a prisoner of conscience and called 
        for her immediate and unconditional release and for charges 
        against her to be dropped. Amnesty International members wrote 
        countless letters calling for her release. Even though she has 
        now been released, there are reportedly conditions attached to 
        her release and Amnesty International is calling on the 
        authorities to remove any that have been imposed, to annul her 
        conviction and to clarify her current legal status.
  <bullet> Bahraini medical health professionals Roula Jassim Mohammed 
        al-Saffar, Nada Sa'eed 'Abdelnabi Dhaif, Fatima Salman Hassan 
        Haji, Dhia Ibrahim Ja'far, Najah Khalil Ibrahim Hassan, and 
        Zahra Mandi al-Sammak: These Bahraini women are part of a group 
        of 20 Bahraini health professionals who were previously 
        sentenced by a military court to between five and 15 years in 
        prison in connection with the popular protests in February and 
        March. Following an international outcry, the Bahraini 
        government announced that they would have an appeal hearing 
        before the High Criminal Court of Appeal, a civilian court, on 
        October 23. During that hearing, some charges were dropped. In 
        addition, ``confessions'' the defendants say they were forced 
        to sign under torture or other duress while in pre-trial 
        detention will no longer be used as evidence at the trial. The 
        next court hearing is scheduled for November 28. The women 
        could still be at risk of an unfair trial.

             THE CONVENTION ON THE ELIMINATION OF ALL FORMS
                    OF DISCRIMINATION AGAINST WOMEN

    The challenges that women in the Middle East and North Africa face 
are not unique. Across the world, women continue to experience gender-
based discrimination and inequality. Among the main obstacles to 
achieving equality are barriers to women's participation in public and 
political life. When women cannot participate in public life, or when 
their ability to participate is curtailed by law, policy, or practice, 
women are denied the opportunity to help shape their government and its 
policies. Too often, when they are included it is solely to discuss the 
issue of women's equality, which ironically precludes achieving that 
equality.
    CEDAW underscores the importance of realizing equality between 
women and men through ensuring women's equal access to, and equal 
opportunities in, political and public life--including the right to 
vote and to stand for election. In the political and public sphere 
women and men working together can be a powerful force for addressing 
inequality and discrimination.
    Under the U.N. Charter, Member States of the U.N. pledged 
themselves to promote ``universal respect for, and observance of, human 
rights and fundamental freedoms for all without distinction as to race, 
sex, language, or religion.'' These aims are strengthened by Member 
States' adherence to the international instruments, such as CEDAW, 
which translate the principles embodied in the Universal Declaration of 
Human Rights into a more detailed legal form. Indeed, discrimination 
against women undermines the principle of equal rights for men and 
women set out in the U.N. Charter, and respect for all human rights.
    Bahrain, Egypt, Libya and Tunisia have all ratified this critical 
human rights treaty. Women in the region have used CEDAW to help claim 
their rights. As the recent example of Tunisia shows, CEDAW provides a 
roadmap for equality that women can use to ensure that their human 
rights are fulfilled.
    In Morocco, where protests have also occurred, women used CEDAW in 
2007 to establish the right to pass their nationality onto their 
children when their father is not Moroccan. This form of discrimination 
against women and girls excludes them from their right to their own 
nationality and violates women's right to equal treatment before the 
law.
    In 2004, a push by Kuwaiti CEDAW activists resulted in the Kuwaiti 
Parliament granting the right to vote to all women--a major and long 
overdue victory for the women of Kuwait and for women's rights 
advocates around the world. Following this progress, in 2009 just four 
years after women gained suffrage, four women where elected to the 
Kuwaiti parliament. They are the first women to be elected to the 50-
seat parliament since 1962.
    By ratifying CEDAW, the U.S. will have an opportunity to 
participate in constructive dialogue, strengthening its ability to 
advance the rights of women and girls around the world. In some 
countries where human rights are repressed, CEDAW training is often the 
only entry point for dialog regarding rule of law and good governance. 
By ratifying CEDAW, the U.S. will continue its tradition of leadership 
on women's human rights.

                               CONCLUSION

    Post-conflict and politically transitioning societies provide a 
unique opportunity for women to engage in the political process and 
create lasting change. But too often, women are left out of the 
process.\2\ Women human rights defenders are sidelined, killed, 
abducted, and made to ``disappear'' as a consequence of their work. 
They face gender-specific repercussions, such as sexual harassment and 
rape. The U.S. government must ensure both women human rights defenders 
and women's rights are not traded away in the transitions.\3\
---------------------------------------------------------------------------
    \2\ A study of 585 peace agreements since 1990 found that only 16 
percent contain any references to women and only 7 percent include 
mention of gender equality or women's human rights. http://
progress.unwomen.org/pdfs/EN-Report-Progress.pdf. However, the passing 
of U.N. Security Council Resolution 1325, a binding resolution to all 
U.N. Members, in 2011, has been a step towards women's participation in 
the peace process. It stresses the importance of women's equal and full 
participation as active agents in establishing peace and security. 
Since this resolution has been in force, the percentage of agreements 
that contain references to women 
has risen significantly, from 11 to 27 percent. http://
progress.unwomen.org/pdfs/EN-Report-Progress.pdf.
    \3\ International human rights documents specifically address the 
protection of women human rights defenders. The U.N. Declaration on 
Human Rights Defenders, adopted by the U.N. General Assembly in 1998, 
affirms the right to defend human rights and urges states to protect 
human rights work and those who carry it out.
---------------------------------------------------------------------------
    The uprisings in the Middle East and North Africa present an 
unparalleled opportunity to ensure gender equality for millions of 
women across the region. We urge the United States Senate to seize this 
opportunity and ensure that the fundamental value and dignity of every 
human being is respected and protected.
    Thank you.
                                 ______
                                 

    The Mahnaz Afkhami Additional Appended Article to her Prepared 
       Statement--Factsheet on Women's Rights and the Arab Spring

      WOMEN'S RIGHTS AND THE ARAB SPRING--MIDDLE EAST/NORTH AFRICA
                        OVERVIEW AND FACT SHEET

    Successful uprisings in Tunisia and Egypt in the last year have 
sparked movements against dictatorships across the Middle East, North 
Africa, and the Gulf region. These movements call for democratization, 
new constitutions that protect equality, free speech and assembly, and 
fair elections. Women have been an integral part of these revolutions, 
organizing and marching alongside men. Now, as countries in the region 
are in the process of building new governments, women's activists know 
they must fight to play a substantial role.
    Today, just as before the Arab Spring, women's rights groups in the 
Arab world are fighting for rights set forth in the United Nations' 
Convention on the Elimination of All Forms of Discrimination Against 
Women (CEDAW), the most comprehensive women's rights treaty, and are 
using it to demand government action. Written in 1979 and entered into 
force in 1981, CEDAW has been ratified by 187 nation-states, including 
every Arab country except Somalia and Sudan.\1\ However, each Arab 
state has ratified the treaty with substantial reservations that 
undermine the treaty's spirit.\2\
    CEDAW is a critical tool in the fight to advance women's rights in 
a democratizing Arab world. Across the region, women have been using 
CEDAW to pressure governments to take meaningful steps to advance 
women's rights, and to push new governments to live up to their 
countries' commitments under the treaty and withdraw all reservations. 
Many governments in the region need to take further steps to align 
national laws with existing international commitments under CEDAW. 
However, while many area governments have yet to live up to CEDAW's 
principles, women's rights activists continue to leverage governments' 
desire to appear to be in compliance with CEDAW as a way to advance 
their cause.
    A coalition of women's rights organizations based in the Middle 
East and North Africa has been working to achieve full implementation 
of CEDAW in the region, which would result in a leap forward for 
women's empowerment. As part of this effort, feminists from across the 
region met in Rabat, Morocco, in May 2011 to review regional changes 
and strategize for the future in the wake of the Arab Spring 
transitions. Together, they are closely monitoring changes in the 
region and working to ensure that constitutional reforms clearly 
protect equality between women and men in both the private and the 
public sphere, legitimize women's role in politics and public affairs, 
and include implementation mechanisms to achieve these effects.\3\
    Leading women's rights activists from across the region have made 
clear the critical importance of CEDAW to these efforts. Furthermore, 
these activists have stressed that the failure of the United States to 
ratify the treaty undermines their ability to use this vital tool when 
advocating for change. The United States has made clear that as 
successful democratic systems and economic development in the Middle 
East and North Africa are vital to U.S. strategic interests, women's 
empowerment in the region is vital and inextricably tied to democratic 
and economic development. U.S. ratification of CEDAW is therefore a key 
component to America's long-term strategic interests.

                                 EGYPT

    For decades, women in Egypt as elsewhere in the region have been 
intimately involved with the reform movement--from organizing labor 
union strikes and asserting their right to free speech, to 
participating in the protests that led to the ouster of the Mubarak 
regime. But after playing a vital role in the revolution, women are 
being actively excluded from the reform process.
    The ten-person constitutional amendment committee responsible for 
revising the constitution prior to the upcoming elections was all men. 
No women were appointed to be governors, and only one woman of a 
possible 34 was appointed to the new cabinet, and she was a holdover 
from the Mubarak regime. A committee on women overseen by the cabinet 
was established, but it is likely to have little power. One activist 
called the committee's creation condescending: ``It's like saying, `You 
women can have your little committee while we men do the serious 
business.' '' \4\ According to The Egyptian Center for Women's Rights 
(ECWR), ``The exclusion of women in Egypt turned into a systematic 
policy.''
    Activists such as the founder of Egypt's New Woman Foundation, Amal 
Abdel Hadi, are making demands rooted in CEDAW principles. She calls 
for women to be added to the constitutional committee, for ``equal and 
fair representation of women and young people in all representative 
bodies,'' and for freedom of expression. The latter, she says, ``should 
allow women to participate more effectively in all areas of public life 
and will provide them with the opportunity to give their perspectives 
on health, the economy, the environment, working conditions, etc.'' \5\
    Activists have achieved some major successes, using CEDAW as a 
foundation of their demands. After a long fight by Egyptian women's 
rights activists, the government issued a decree on May 2 allowing 
Egyptian women married to Palestinian men to pass their nationality to 
their children.\6\ Enas El Shaffie, Executive Director of the Forum for 
Women in Development, a Cairo-based women's rights organization, said 
CEDAW was key to leveraging government action on the nationality law. 
Three years earlier, the government had withdrawn its reservation to 
CEDAW Article 9(2), which affirms a woman's right to pass her 
nationality on to her children.\7\ The 2011 decree brings Egypt one 
step closer to compliance with its treaty obligations. According to El 
Shaffie, CEDAW is widely used by Egyptian women's rights and democracy 
activists to pressure the government to live up to its obligations and 
take action on domestic reforms.\8\

                                TUNISIA

    After overthrowing the dictatorship of Ben Ali in January 2011, 
inspiring the Arab Spring across the region, Tunisia initially seemed 
to be on the path to ensuring women's inclusion in the new regime and 
was considered by some to be a model for women's empowerment. On April 
11, 2011, the Tunisian transitional government passed a revolutionary 
law that established full parity and compulsory alternation of male and 
female candidates on all lists for the October 23 election of the 
Constituent Assembly that will draft the new constitution.\9\ Still, 
men were listed first in 94 percent of the electoral lists.\10\
    On August 16, after Minister of Women Lilia Laabidi submitted a 
draft decree, Tunisia withdrew all specific reservations to CEDAW.\11\ 
This was a significant milestone for Tunisia, which signed the 
Convention in 1985 and is the only country in the region other than 
Morocco to eliminate all specific reservations.
    However, women's rights groups such as Association Tunisienne des 
Femmes Democrates (ATFD) oppose the government declaration that it will 
not enforce CEDAW provisions deemed contrary to Article One of the 
Constitution, which stipulates Islam as the state religion. Women's 
rights activists assert that this caveat undermines the legal 
significance of the removal of reservations and is particularly 
worrisome in regard to statutes on family law, such as inheritance. 
Tunisian women are now seeking withdrawal of this declaration and 
removal of all discriminatory provisions from Tunisian law.
    The October 23 elections resulted in a majority vote for An-Nahda, 
considered by some to be a moderate Islamic party. While party leaders 
have said they will uphold women's rights achieved under Ben Ali, 
women's rights and democracy activists are seriously concerned that the 
party will act differently once in power.
    Tunisia ranked highest in all four categories of a 2010 Freedom 
House report on women's rights in the region.\12\ As in Egypt, however, 
some people associate women's rights with the old regime, so this 
transitional period is critical to ensuring that the gains of the past 
several decades are maintained.

                                 JORDAN

    In response to demonstrations and protests since January 2011, King 
Abdullah initiated a process of reform in the political, economic, and 
constitutional areas. He established a Royal Commission to review the 
constitution and recommend amendments. This gave women's activists an 
opportunity to present their demands, including increased protections 
from violence, guaranteed economic and political participation, and 
other social justice and democracy provisions, including social 
security, separation of powers and environmental conservation.\13\
    The women's movement advocated adding ``gender'' to the phrase, 
``There shall be no discrimination between Jordanians as regards to 
their rights and duties on grounds of race, language or religion'' in 
Article 6 of the constitution. This would ensure application of the 
principle of equality and prevent discrimination against women. Though 
many Arab and Muslim-majority countries include such a stipulation in 
their constitutions, the commission sent its final wording of proposed 
changes to Parliament without amending Article 6, despite the women's 
demands and international commitments.\14\
    In July 2011 Jordan passed a Municipalities Law that raised the 
quota for women's seats in municipal councils from 20 percent to 25 
percent. (In May 2010, a new elections law had raised the number of 
parliamentary seats reserved for women from 6 of 110 to 12 of 120). 
Women's activists are now working to prepare women for participation in 
upcoming elections.\15\
    Jordanian women's rights advocates continue to protest delays in 
implementing women's full human rights according to international 
standards, drawing special attention to CEDAW, which Jordan ratified in 
1992. Following national activism on the issue, Jordan in 2009 removed 
its reservation to Article 15 of CEDAW, which grants women the right to 
travel freely and choose their place of residence.\16\
    The current challenge for women's rights activists in Jordan is the 
one facing activists worldwide: they must not let so-called ``bigger'' 
issues overshadow women's issues or create a climate allowing their 
neglect.\17\ Today, the country's failure to fully implement CEDAW and 
its reservations related to women's nationality rights remain critical 
barriers to the realization of women's rights in Jordan.

                                MOROCCO

    As the impact of the Arab Spring was felt across the region, 
activists in Morocco launched protests calling for democratic reform 
and an end to corruption in the country. In response, King Mohammed 
called for a Consultative Commission to review the constitution and 
deliver recommendations for democratic reform. Women were five of the 
18 commission members. Women's rights organizations, including the 
Association Democratique des Femmes du Maroc (ADFM), played an active 
role in advocating reforms to establish women's rights.\18\
    On April 18, 2011, after years of advocacy by women's rights 
organizations--including ADFM--Morocco formally withdrew its 
reservations to CEDAW. In a related development, Moroccans voted July 1 
to accept the proposed constitutional reforms.
    These were major changes. They included: recognition in the 
preamble of women and men's equal status as citizens; a ban on 
discrimination, including sex discrimination, and a commitment to fight 
it; a commitment to government action to advance the ``freedom and 
equality of all citizens and their participation in the political, 
economic, cultural and social spheres''; the creation of an Authority 
for Equality and the Fight Against all Forms of Discrimination for the 
purpose of achieving equality between men and women; recognition of the 
need for a legal provision promoting equal access for women and men to 
elected positions and to improve the participation of women on local 
authorities; and, most importantly, the need to bring national law into 
agreement with the country's international commitments.\19\
    That means that while in practice women in Morocco still experience 
significant discrimination, those fighting for women's rights and 
empowerment now have authority under the national constitution to cite 
all of CEDAW's provisions as leverage to hold the government to its 
commitment to move toward women's full equality.

----------------
End Notes
    1. Iran has also not ratified CEDAW.
    2. Articles typically reserved by countries in the Middle East and 
North Africa: (2) Affirmative obligations to prevent discrimination; 
(9) The right of a woman to retain her own nationality despite 
marriage, and to pass nationality on to her child despite the father's 
nationality; (15) The right of a woman to equality of men under the 
law, the right to freely contract, property rights, and the right to 
choose residence and domicile; and (16) The right to equality in 
marriage and family.
    3. ``Feminists Convene in Rabat to Strategize on Women's Equality 
After the Arab Spring,'' Women's Learning Partnership (May 25, 2011, 
http://www.learningpartnership.org/blog/2011/05/womens-equality-arab-
spring/.
    4. ``The New Egypt: Leaving Women Behind,'' Al-Jazeera (Mar. 8, 
2011), http://english.
aljazeera.net/indepth/features/2011/03/201138133425420552.html.
    5. Interview with Amal Abdel Hadi, Int'l Fed. of Hum. Rts. (Mar. 
10, 2011), http://www.fidh.org/Interview-with-Amal-Abdel-Hadi-New-
Woman.
    6. ``Post-Revolution, Egypt Establishes Right of Women Married to 
Palestinians to Pass Nationality to Children,'' Women's Learning 
Partnership (May 13, 2011), http://www.learn
ingpartnership.org/lib/post-revolution-egypt-establishes-right-women-
married-palestinians-pass-nationality-children-1.
    7. United Nations Treaty Collection, http://treaties.un.org/Pages/
ViewDetails.aspx?src=
TREATY&mtdsg_no=IV-8&chapter=4&lang=en#20 (last visited Sept. 29, 
2011).
    8. WLP interview with Enas El Shafie, October 5, 2011.
    9. Kristine Goulding, ``Tunisia: Arab Spring, Islamist Summer,'' 
Open Democracy, (October
25, 2011) http://www.opendemocracy.net/5050/kristine-goulding/tunisia-
arab-spring-islamist-summer.
    10. ``Tunisa Elections: Women Still Struggle to Run,'' Huffington 
Post, (October 21, 2011), http://www.huffingtonpost.com/2011/10/21/
tunisia-elections-women_n_1024170.html.
    11. ``Tunisia: Government Lifts Restrictions on Women's Rights 
Treaty,'' Human Rights Watch (Sept. 6, 2011), http://www.hrw.org/news/
2011/09/06/tunisia-government-lifts-restrictions-women-s-rights-treaty.
    12. Sanja Kelly and Julia Breslin, eds., ``Women's Rights in the 
Middle East and North Africa'' (New York, NY: Freedom House; Lanham, 
MD: Rowman & Littlefield, 2010) http://freedomhouse.org/uploads/
special_report/section/269.pdf.
    13. WLP blog, ``Our Vision and Voices: Women's Rights in the 
Balance: Upcoming Constitutional Reforms in Jordan and an Appeal'' by 
WLP Partner Asma Khader, http://www.learningpartnership.org/blog/2011/
05/jordan-constitution-women/.
    14. ``Women Activists Call for Ensuring Equality in Constitutional 
Amendments," Jordan Times, (August 17, 2011) http://
www.jordantimes.com/index.php?news=40500.
    15. ``House Passes Municipalities Law,'' Jordan Times, (July 28, 
2011) http://www.jordan
times.com/index.php?news=39899.
    16. Valetine Moghadam, ``Women's Learning Partnership: An 
Independent External Evaluation: Activities and Outcomes,'' 2010.
    17. Interview with Leila Hammarneh, Projects Director, Arab Women 
Organization, Jordan, Int'l Fed. of Hum. Rts. (Mar. 10, 2011), http://
www.fidh.org/Interview-with-Leila-Hammarneh-Projects-Director.
    18. ``Constitutional Reform: ADFM Memorandum,'' http://www.adfm.ma/
spip.php?article1403&
lang=en; ``Des Marocaines militent pour l'egalite homme/femme dans la 
Constitution,'' De Caroline TAIX (AFP), (May 12, 2011), http://
www.google.com/hostednews/afp/article/ALeqM5
gOv0CCqNYdlr76c0mpDzVklMEwQw?docld=CNG.0944f388fe663cc8b4c80eadfaa9f7c2.
11.
    19. "Q&A: Morocco's Referendum on Reform,'' BBC News, (July 29, 
2011) http://www.bbc.co.uk/news/world-africa-13964550; ``Women's Rights 
in the Draft Constitution,'' ADFM Press Release, http://
www.learningpartnership.org/lib/womens-rights-draft-constitution.
                                 ______
                                 

    Appendices Submitted as an Attachment to Professor Sandra Bunn-
                    Livingstone's Prepared Statement

                                 ______
                                 

          APPENDIX A--THE EGYPTIAN BILL OF RIGHTS AND FREEDOMS

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

         APPENDIX B--THE CANNES PEACE ACCORD AND PLAN OF ACTION

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

              APPENDIX C--TESTIMONIES FROM EGYPTIAN WOMEN

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               APPENDIX D--TESTIMONIES OF TUNISIAN WOMEN

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
